<html>
<title> - [H.A.S.C. No. 116-54] U.S. POLICY IN SYRIA AND THE BROADER REGION</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                                     
 
                         [H.A.S.C. No. 116-54]

                        U.S. POLICY IN SYRIA AND

                           THE BROADER REGION

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           DECEMBER 11, 2019


                                     
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                            ______

              U.S. GOVERNMENT PUBLISHING OFFICE 
41-863                WASHINGTON : 2021



                                     
                      COMMITTEE ON ARMED SERVICES
                     One Hundred Sixteenth Congress

                    ADAM SMITH, Washington, Chairman

SUSAN A. DAVIS, California           WILLIAM M. ``MAC'' THORNBERRY, 
JAMES R. LANGEVIN, Rhode Island          Texas
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                ROB BISHOP, Utah
JOE COURTNEY, Connecticut            MICHAEL R. TURNER, Ohio
JOHN GARAMENDI, California           MIKE ROGERS, Alabama
JACKIE SPEIER, California            K. MICHAEL CONAWAY, Texas
TULSI GABBARD, Hawaii                DOUG LAMBORN, Colorado
DONALD NORCROSS, New Jersey          ROBERT J. WITTMAN, Virginia
RUBEN GALLEGO, Arizona               VICKY HARTZLER, Missouri
SETH MOULTON, Massachusetts          AUSTIN SCOTT, Georgia
SALUD O. CARBAJAL, California        MO BROOKS, Alabama
ANTHONY G. BROWN, Maryland, Vice     PAUL COOK, California
    Chair                            BRADLEY BYRNE, Alabama
RO KHANNA, California                SAM GRAVES, Missouri
WILLIAM R. KEATING, Massachusetts    ELISE M. STEFANIK, New York
FILEMON VELA, Texas                  SCOTT DesJARLAIS, Tennessee
ANDY KIM, New Jersey                 RALPH LEE ABRAHAM, Louisiana
KENDRA S. HORN, Oklahoma             TRENT KELLY, Mississippi
GILBERT RAY CISNEROS, Jr.,           MIKE GALLAGHER, Wisconsin
    California                       MATT GAETZ, Florida
CHRISSY HOULAHAN, Pennsylvania       DON BACON, Nebraska
JASON CROW, Colorado                 JIM BANKS, Indiana
XOCHITL TORRES SMALL, New Mexico     LIZ CHENEY, Wyoming
ELISSA SLOTKIN, Michigan             PAUL MITCHELL, Michigan
MIKIE SHERRILL, New Jersey           JACK BERGMAN, Michigan
VERONICA ESCOBAR, Texas              MICHAEL WALTZ, Florida
DEBRA A. HAALAND, New Mexico
JARED F. GOLDEN, Maine
LORI TRAHAN, Massachusetts
ELAINE G. LURIA, Virginia
ANTHONY BRINDISI, New York

                     Paul Arcangeli, Staff Director
                Jonathan Lord, Professional Staff Member
               Mark Morehouse, Professional Staff Member
                          Emma Morrison, Clerk
                          
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Chairman, 
  Committee on Armed Services....................................     1
Thornberry, Hon. William M. ``Mac,'' a Representative from Texas, 
  Ranking Member, Committee on Armed Services....................     3

                               WITNESSES

Esper, Hon. Mark T., Secretary of Defense, Department of Defense.     4
Milley, GEN Mark A., USA, Chairman, Joint Chiefs of Staff........     6

                                APPENDIX

Prepared Statements:

    Esper, Hon. Mark T., joint with GEN Mark A. Milley...........    55

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [The information was not available at the time of printing.]

Questions Submitted by Members Post Hearing:

    Mr. Golden...................................................    64
    Ms. Houlahan.................................................    64
    Mr. Kim......................................................    63
    Mr. Waltz....................................................    64
    
              U.S. POLICY IN SYRIA AND THE BROADER REGION

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                      Washington, DC, Wednesday, December 11, 2019.
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
room 2118, Rayburn House Office Building, Hon. Adam Smith 
(chairman of the committee) presiding.

  OPENING STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM 
       WASHINGTON, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Let us go ahead and call the meeting to 
order. I want to start by thanking our witnesses, Secretary 
Esper and Chairman of the Joint Chiefs of Staff Milley, for 
appearing before us to testify.
    The purpose of this hearing is to discuss our policy in 
Syria, particularly in light of the events that happened just a 
couple of months ago when Turkey invaded and drove the Kurds 
out of portions of that.
    But before I do that I do want to do one other--it is our 
first hearing since Congressman Brindisi from New York has 
joined the committee. I want to thank him. We have a lot of new 
faces on this committee, but now they are a year into it. They 
are not new faces anymore, but it is good to have another 
freshman added to the committee. I appreciate him serving. 
Welcome. Thank you.
    As I said, the purpose of this hearing is to look into the 
events around Syria. And there is a whole bunch of questions. 
And the other big issue for us is just the ability of the 
members of this committee to ask questions directly of the key 
policymakers in an area that is of enormous importance to the 
committee and to give them an opportunity to learn more about 
that policy and also express their views. And that is a huge 
part of oversight role in Congress and I think it would be 
enormously important.
    There are three sort of broad areas that I am interested 
around this. First of all is where do we go from here? What is 
now the mission on containing ISIS [Islamic State of Iraq and 
Syria] and ultimately defeating ISIS in the region? Because 
without question, no matter how we got to the point where we 
got, the Turkish incursion into Syria changed that equation. We 
had built an alliance with the Syrian Democratic Forces and 
with the Kurds as a big part of that in the region. And the 
history is important here. We were trying for years, quite a 
long time, after the rise of ISIS to find a coalition as they 
built a caliphate across Syria and across Iraq and threatened 
our interests and the interests of the region. That was an 
unchecked expansion for a substantial period of time.
    In 2015, the Obama administration was able to cobble 
together a coalition, primarily of Kurds in the YPG [People's 
Protection Units] in Syria, but also with Syrian Democratic 
Forces and then working with Iraqis as well to have a counter-
ISIS movement. And whatever else one can say about it, it 
worked. The caliphate has been broken up because of that plan 
started by the Obama administration and carried out by the 
Trump administration. Now as we all know, it did not defeat 
ISIS. ISIS is still a robust, transnational terrorist threat in 
that region and beyond. But the breaking up of the caliphate 
was a huge accomplishment. With the incursion from the north of 
Turkey, it undermines that.
    What is the new plan? What happens here going forward? 
Because the biggest risk of this plan from the start was the 
concern that the Turks would have about our alliance with the 
Kurds and the YPG in particular. And the Obama administration 
spent a lot of time trying to make sure that Turkey didn't do 
what they ultimately wound up doing here. And we need a new 
plan. So understanding what that plan is is important.
    But the other piece that I think is important for members 
is to understand how policy gets made between the Pentagon and 
the White House and how we can be involved in it because there 
certainly are a lot of concerns about how this came out. And I 
would be very curious to have you tell us what actually 
happened. But essentially, the President sent out a tweet, I 
think it was a year ago now, in December saying and I don't 
have it directly in front of me but basically we are pulling 
out of Syria. And by the way, pulling out of Afghanistan, as 
well, at the same time.
    And in all the meetings that I had and this committee has 
had the first we heard of that. There had been no discussion 
about it. So the impression that is given is that it wasn't 
like he sat down with the NSC [National Security Council] and 
said hey, what is going on? What is the plan? He didn't sit 
down with you guys and say, hey, this is a policy objective we 
need to get to, how are we going to get there? He woke up one 
morning and decided we were going to do it. That is 
problematic, to my way of thinking. And we sort of backfilled 
the policy afterwards.
    We need greater transparency. I think the process is 
important. I trust the job that you guys do. I trust a lot of 
people at the Pentagon, a lot of people in the NSC. Their input 
is important in developing a policy, not just sort of throwing 
it out there and seeing what happens. So we would like to learn 
more about how that works.
    And there are other issues on that. There was recently 
discussion of aid that we had approved for Lebanon. That aid 
was held up for some period of time. We attempted to find out 
why and it was kind of hard, basically. It was eventually 
released, but we never really heard what was the point? Those 
sorts of things really matter. I think they matter for the 
executive branch, but they matter a lot for us, too. Because on 
this committee, there are a lot of very bright, talented 
people. We have people who have served in the military, people 
who have served in the CIA [Central Intelligence Agency], State 
Department, people who are just policymakers, who want to be 
part of that discussion to help as a co-equal branch of 
government work towards a good policy. We want to improve upon 
where we are at in that relationship.
    Lastly, certainly ISIS is a huge concern in the region, but 
there are other concerns in the region and we want to know how 
the policies as we are dealing with Syria, with Bashar al-Assad 
having held on to power and seemingly will for some time, how 
does that impact the broader region? I personally have just got 
back from a trip there and Ms. Slotkin joined me on that trip 
as well with a couple of other members to the Middle East. And 
while there are certainly challenges, I think there are also 
opportunities there. There were protests in Iraq and Lebanon 
against the Iranian involvement which we had never seen before. 
People in the region are beginning to understand that Iran's 
influence is malign and undermining their interests. There is 
an opportunity there because in addition to containing ISIS, 
that is their other largest goal in the region is to stop 
Iran's destabilizing influence from Syria to Lebanon to Iraq to 
Yemen, all across. How can we contain them? How can we build on 
that and get an opportunity?
    Also, the concern about Iran has given us, I think, a 
historic opportunity to try to deal with the Israeli-
Palestinian crisis, enormous crisis in the Middle East. There 
is now a much more of a connection between some key Arab states 
and Israel because of their concern about Iran. Is there a way 
to build on that to create a more stable Middle East?
    So those are sort of the three broad policy areas that I am 
interested in. Again, a huge part of this is to give members an 
opportunity to better understand what the policy is. We are, 
knock on wood, going to pass a defense bill today. That is our 
effort and the more informed we are, the better that bill is 
going to be. And with that, I am pleased to yield to the 
ranking member, Mr. Thornberry.

      STATEMENT OF HON. WILLIAM M. ``MAC'' THORNBERRY, A 
 REPRESENTATIVE FROM TEXAS, RANKING MEMBER, COMMITTEE ON ARMED 
                            SERVICES

    Mr. Thornberry. Thank you, Mr. Chairman, and I want to 
welcome both of our witnesses. I believe this is the first time 
that you-all are up here in your current capacities together 
and we appreciate you taking the time to be here with us.
    As we think about Syria, I think all of us--there are those 
who develop a Syria policy on paper in journal articles and so 
forth. And it seems relatively simple and straightforward. What 
you-all have to deal with is the real world including the 
historical, the cultural, the religious, the ethnic background 
and complications in this part of the world and that is the 
world as you found it and as you have to deal with it. It is 
not quite as simple as putting down points one, two, and three 
on a piece of paper and assuming that everything will flow 
easily from that.
    You also have to deal with mistakes made by previous 
administrations. I remember the Obama administration made a big 
deal about pivoting to Asia, implying that we were pivoting 
away from the Middle East. Well, it turns out that the Middle 
East doesn't really let you get away from it with terrorism, 
and as the chairman points out, the necessities of containing 
Iran.
    I remember the previous administration drawing a red line 
in Syria and then failing to follow up which many people 
believe has emboldened not only Assad, but others, to take 
greater risks, that the U.S. would not follow through on 
threats or statements that it made.
    All of that is part of the quagmire that is Syria today, 
that you-all have to deal with. But I agree completely, our 
challenges are how do we reduce the terrorist threat, 
especially to the homeland, from that region? And how do we 
contain an aggressive, seemingly increasingly desperate Iran, a 
revolutionary regime that seems bent on expansion and 
disruption of key neighbors?
    Of course, you-all can't fix the whole problem. What you 
can do is tell us what your objectives are and what the 
military role is in this. And we look forward to hearing on 
both of those things today. Thank you for being here.
    The Chairman. Thank you. With that, as I understand it, you 
have one joint statement. Is that correct or are you both----
    Secretary Esper. We submitted one joint statement, Mr. 
Chairman. We both have separate statements, too.
    The Chairman. All right, then I will yield to Mr. Esper.

    STATEMENT OF HON. MARK T. ESPER, SECRETARY OF DEFENSE, 
                     DEPARTMENT OF DEFENSE

    Secretary Esper. Thank you, Mr. Chairman. Chairman Smith, 
Ranking Member Thornberry, and distinguished members of the 
committee, thank you for the opportunity to testify today on 
the security situation in Syria and the broader Middle East.
    Before we begin, I would like to thank the committee for 
its work on the NDAA [National Defense Authorization Act]. I 
encourage Congress to move swiftly on its passage, along with 
the defense appropriations bill. This legislation is critical 
to providing our service members the resources they need to 
fully implement the National Defense Strategy.
    I also want to offer my deepest condolences to the victims 
and families of the tragic shooting that took place at Pearl 
Harbor and Pensacola this week. In light of these events, we 
are reviewing our vetting procedures for all foreign nationals 
who come to the United States for military training, as well as 
assessing our installation security procedures to ensure the 
safety of our military community.
    As reflected in the National Defense Strategy, the 
Department of Defense prioritizes China and then Russia as our 
Nation's top national security challenges. As we transition our 
focus towards great power competition, we must also remain 
vigilant in countering threats from rogue states like Iran and 
violent extremist organizations such as ISIS. The United States 
strategy in the Middle East seeks to ensure the region is not a 
safe haven for terrorists, is not dominated by any power 
hostile to the United States, and contributes to a stable 
global energy market.
    For the Department of Defense, this translates to the 
following six objectives. First, utilize a dynamic U.S. 
military presence with strategic depth to deter, and if 
necessary, respond to aggression. Second, strengthen the 
defensive capabilities of regional partners. Third, advance 
partnerships and burden sharing with allies and partners to 
address shared security concerns. Fourth, protect freedom of 
navigation. Fifth, deny safe haven to terrorists that threaten 
the homeland. And sixth, mitigate WMD [weapons of mass 
destruction] threats.
    Although there are a multitude of security issues to 
discuss in the Middle East, today we will focus on two of the 
most destabilizing players in the region, ISIS and Iran. 
Beginning with ISIS, the United States has achieved success 
alongside our partner forces in Syria and Iraq to destroy the 
physical caliphate and to liberate 7.7 million people living 
under its brutal rule. This includes the successful operations 
that resulted in the death of ISIS's founder and leader, Bakr 
al-Baghdadi, as well as one of his top deputies.
    The Department of Defense remains committed to working with 
our partners to ensure ISIS is unable to mount a resurgence. 
Today, U.S. forces remain postured in Syria, operating in close 
coordination with the Syrian Democratic Forces. Although the 
recent Turkish incursion has complicated this battlespace, the 
Department of Defense remains confident that we can continue 
the mission the President has given us in Syria which is to 
ensure the enduring defeat of ISIS. We maintain our leadership 
role in the Defeat ISIS campaign which brings together 76 
nations and 5 international organizations to provide funding, 
military capabilities, and political support.
    In Iraq, we continue to work by, with, and through the 
Iraqi Security Forces to enable a strong and independent state. 
I was recently there to visit our troops and meet with our 
Iraqi partners. Despite the turmoil at the political level, our 
train, advise, and assist efforts with the Iraqi military 
remain strong and continue to show progress.
    Moving to Iran, over the past 18 months the Department of 
Defense has supported the United States economic and diplomatic 
maximum pressure campaign. These efforts seek to bring the 
Iranian regime back to the negotiating table for a new and 
better deal that addresses the full range of threats emanating 
from Iran. Tehran's efforts to destabilize the region have 
increased in recent months as it attacked targets in Saudi 
Arabia, disrupted the commercial shipping through the Strait of 
Hormuz, shot down a U.S. unmanned aircraft in international air 
space, and provided support to numerous proxy groups. To 
address these threats, we are taking a deliberate approach to 
strengthen our defenses, to enable our partners to better 
defend themselves, and to refine our response options.
    Since May of this year, nearly 14,000 U.S. military 
personnel have deployed to the region to serve as a tangible 
demonstration of our commitment to our allies and our partners. 
These additional forces are not intended to signal an 
escalation, but rather to reassure our friends and buttress our 
efforts at deterrence.
    We are also focused on internationalizing the response to 
Iran's aggression by encouraging increased burden sharing and 
cooperation with allies and partners from around the world. The 
International Maritime Security Construct which protects 
freedom of navigation in the Persian Gulf and Gulf of Oman and 
the more nascent integrated air and missile defense efforts led 
by Saudi Arabia, are two such examples. Through these 
activities, we are sending a clear message to Iran that the 
international community will not tolerate its malign 
activities.
    Along with our allies and partners, we remain united in our 
commitment to regional stability and to upholding longstanding 
international rules and norms. Importantly, Iran should not 
mistake the United States restraint for an unwillingness to 
respond with decisive military force should our forces or 
interests be attacked.
    In conclusion, as the Department of Defense continues to 
implement the National Defense Strategy, the stability of the 
Middle East remains important to our Nation's security. As 
such, we will continue to calibrate all of our actions to deter 
conflict, to avoid unintended escalation, and to enable our 
partners to defend themselves against regional aggressors. In 
doing so, we will preserve the hard-won gains of the past and 
ensure the security of the United States and our vital 
interests.
    Thank you and I look forward to your questions.
    [The joint prepared statement of Secretary Esper and 
General Milley can be found in the Appendix on page 55.]
    The Chairman. Thank you.
    Chairman Milley.

STATEMENT OF GEN MARK A. MILLEY, USA, CHAIRMAN, JOINT CHIEFS OF 
                             STAFF

    General Milley. Chairman Smith and Ranking Member 
Thornberry, distinguished committee members, thank you for the 
opportunity to testify today on the national security 
challenges we face in the Middle East. And before I begin, I 
would like to echo Secretary Esper's condolences and sympathies 
to the victims and the families of the shootings at both Pearl 
Harbor and Pensacola. On behalf of all the leaders both 
uniformed and civilians in the United States military our 
thoughts and prayers are with the fallen and we are thankful 
for the heroism and the skill of the persons who responded to 
put themselves in harm's way to save countless lives.
    On the topic today on the Middle East, I just returned a 
few days ago from an eight-country visit to Israel, Jordan, 
Saudi Arabia, Bahrain, Kuwait, Iraq, Afghanistan, and Oman. The 
Middle East remains a challenge to U.S. national security 
interests. ISIS, al-Qaida, and other terrorist groups thrive on 
the instability in the region as they try to export violent 
extremism around the world. We are not finished with that 
fight. Iran exploits the volatility of the Middle East and 
asserts itself through malign influence to achieve regional 
dominance.
    Our National Security Strategy, as Secretary Esper 
outlined, has clear goals: a stable and secure Middle East; a 
Middle East that is not a safe haven and a breeding ground for 
violent extremists; a Middle East that is not dominated by a 
nation hostile to the United States; and a Middle East that 
contributes to a stable global energy market.
    As the Secretary stated, the National Defense Strategy 
provides military objectives to deter the destabilizing 
activities of Iran and violent extremist organizations and he 
outlined those six objectives. The National Military Strategy 
describes how the joint force achieves those six objectives 
through our five focus areas of responding to threats, 
deterring strategic attacks that includes the proliferation of 
weapons of mass destruction, deter conventional attacks, assure 
our allies and partners, and compete below the level of armed 
conflict.
    Specifically, in Syria, we continue combined operations 
with the Syrian Democratic Forces in order to complete the 
enduring defeat of ISIS and prevent their reemergence. Iraq has 
been an essential partner in defeating ISIS in the region and 
we continue to work by, with, and through Iraqi Security Forces 
in order to achieve a secure and stable Iraq, able to defend 
itself against internal security threats of terrorism.
    Our military strategy in Afghanistan is to continue to deny 
Afghanistan as a safe haven for terrorist attacks on the 
homeland and that has been our objective since October 7, 2001. 
And we also support the effort to reach a political settlement 
between the Taliban and the Afghan Government and Afghan-to-
Afghan negotiated settlements that ends this war in a 
responsible way and meets U.S. national security objectives.
    And Iran remains the world's leading state sponsor of 
terrorism and has increased instability in the region through 
state and proxy actions. As you know, we have increased 
recently our force posture in the response to Iran's recent 
attacks against the Kingdom of Saudi Arabia and the continued 
acts of aggression and malign influence throughout the region. 
We will maintain the strategic depth of the joint force in the 
region in order to deter Iran, assure our partners, and if 
necessary, respond if deterrence fails.
    In broad terms, our military strategy in the Middle East is 
part of an interagency international effort to sustain the 
conditions-based approach designed to one, defeat violent 
extremism including the enduring defeat of ISIS; two, to 
prevent regional dominance by Iran; and three, to assure our 
allies and partners.
    Thank you for your continued support to our men and women 
in uniform. I look forward to an NDAA later on this afternoon 
and I appreciate the opportunity to appear here today and I 
look forward to your questions.
    The Chairman. Thank you, gentlemen. Now we will move into 
questions. Our two witnesses have a hard stop at noon which 
means I am going to be even more aggressive about enforcing the 
5-minute clock to make sure that we can get to as many members 
as possible.
    I have had my opportunities before, so I am not going to 
ask questions. I will yield to Mrs. Davis for the first set of 
questions, 5 minutes. Thanks.
    Mrs. Davis. Thank you, Mr. Chairman, and thank you to both 
of you, Dr. Esper and General Milley, for joining us.
    I appreciate your statement and I wonder if you will just 
perhaps in a more refined fashion, why is our military presence 
essential in Syria? And what can we not achieve actually 
through other means to fulfill our strategic objectives?
    And I wonder if you could in that answer take us into 3 
years with that military posture and touch briefly on the 
diplomatic mission as well. Thank you.
    Secretary Esper. Thank you, Congressman. I will take the 
first stab, and then let General Milley flesh out operational 
aspects of it.
    In short, the mission remains the enduring defeat of ISIS. 
We do that through this partnership with the SDF [Syrian 
Democratic Forces] on the ground. The SDF has been a great 
partner in the sense of providing very capable ground forces. 
What we provide for them are the enablers, principally the air 
support and intelligence, things like that that help us defeat 
ISIS as we see ISIS pops up.
    And Chairman, I don't know if you want to provide more 
operational details.
    General Milley. Yes. Why is it necessary? It is because 
ISIS still exists. ISIS as an entity, as an organization, is 
more than just an organization. It is also an ideology. It is 
an inspirational group, and so on and so forth.
    They have been defeated, the caliphate, the physical 
entity, the proto-state called the caliphate. That was 
destroyed, defeated. But the organization itself still exists. 
There are still members and they are generally, more or less, 
not 100 percent, but generally in the lower Euphrates River 
Valley. In order to provide for the enduring defeat and working 
by, with, and through allies and partners, Iraqi Security 
Forces in Iraq and the SDF in Syria, that enables us to 
continue to maintain intelligence collection and strike 
capability to continue to rip apart the remnants of what is 
ISIS. If we fail to do that, ISIS will reemerge. The conditions 
will come back and they will reemerge as a capable threat to 
the region and our interests.
    Mrs. Davis. And so what are the conditions then that would 
allow us to withdraw? Does that mean that ISIS would absolutely 
have to be defeated? And we obviously know that the situation 
in Afghanistan is very critical in that way as well.
    Secretary Esper. So one thing I will add first and then I 
will answer your question directly. We are fighting ISIS right 
now all the way from Africa into Afghanistan. We have 
operations conducting there against ISIS and its derivatives.
    The metric that we have set out for this in terms of when 
we could consider redeploying, if you will, would be when we 
feel confident that local security and police forces are 
capable of handling any type of resurgence, if you will, of 
ISIS. I think the defeat, if you will, will be hard because it 
is an ideology. I don't think we ever--it is hard to foresee 
any time soon that we would stamp it out, but when we get to 
the point where local police and security forces can handle the 
actual threat of ISIS activities, then that would be a metric.
    Mrs. Davis. And looking to Turkey and Syria, what can we 
see in the next few years in terms of their handling those 
objectives that you have outlined?
    Secretary Esper. Well, I think Turkey and Syria have 
different objectives. This is our priority with regard to 
Syria. Turkey's objective, and I hesitate to speak for them, 
but in my discussions with the Turks, their number one concern 
are Kurdish terrorists, the PKK [Kurdistan Workers' Party], 
coming into Turkey and conducting attacks on the Turkish 
people.
    Close behind that is the presence of 2 to 3 to 4 million 
refugees in Turkey and their ability to sustain that, so their 
focus is a little bit different than what ours is right now on 
that front.
    Mrs. Davis. Could you speak to the whole-of-government 
approach there, as well, because obviously, this is the Armed 
Services Committee, but we also know that if we don't have a 
full picture of where the State Department is in this and their 
capacity at this time to be dealing with it, that that is a 
real problem for us.
    I am not asking you to be the Secretary of State, but 
please.
    Secretary Esper. Secretary of Defense is challenging 
enough. The State Department, in the context of Syria, the 
State Department is working through a U.N. [United Nations] 
process we call the Geneva process that brings the key players 
in Geneva to discuss a resolution to the war in Syria, the 
civil war in Syria. That process has had its ups and downs over 
the years and I am sorry, but I can't give you a current update 
as to where things stand. Progress has not been sufficient 
enough for our likes, if you will.
    Mrs. Davis. And General Milley, could you comment as well 
on your optimism, pessimism, in terms of the support of the 
diplomatic mission there?
    General Milley. I wouldn't characterize it as optimistic or 
pessimistic. I just think that we, the U.S. military, have a 
requirement not just in the Middle East but throughout the 
world to support diplomatic efforts. In the words of a previous 
Secretary of Defense, it is much better that foreign countries 
deal with the Department of State than the Department of 
Defense. So we want to act in support all the time of 
diplomatic efforts.
    With respect to Syria or Iran for that matter and the 
topics of today, there are a variety of diplomatic efforts 
ongoing and we are directly in support of those.
    Mrs. Davis. Thank you very much.
    The Chairman. Thank you. Mr. Thornberry.
    Mr. Thornberry. Mr. Chairman, I will yield to Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Thornberry. And I thank both of 
you for being here today. America is fortunate to have such 
leadership and I know military families appreciate, Mr. 
Secretary and General, your service. It is so meaningful.
    And Mr. Secretary, I appreciated earlier this year, I had 
an opportunity to welcome you to Fort Jackson. I saw your 
empathy in relationship with the military, the troops. It was 
so positive and I fully supported the promotion that you 
received to be Secretary of Defense and it is just reassuring 
again to our allies, to the American people, to military 
families. So thank you.
    And with that, I am grateful to be the ranking member of 
the Middle East, North Africa, and International Terrorism 
Subcommittee of the Foreign Affairs Committee. We understand 
any strategy in Syria should be both diplomatic and political. 
And so what is the relationship of the Department of Defense 
and State Department to try to promote stability in the region?
    Secretary Esper. Well, thank you for your comments, Mr. 
Wilson. We collaborate constantly with State Department at all 
levels to include myself speaking often with Secretary Pompeo. 
We are brought together in the NSC process where we have 
committee deputies, principal committee meetings to discuss 
these issues. And so in each of them we were hand in glove.
    As the Chairman mentioned, as I have stated before, part of 
our job is to enable our diplomats. I want to do that as much 
as possible. In some cases maybe providing security, if you 
will, for the distribution of humanitarian aid. In other cases, 
it is making sure that we are using our military presence to 
reassure and reinforce allies and partners which is what we 
have been doing in Saudi Arabia with Saudi Arabia. So those are 
just two examples of the close coordination that happens 
between us. And by the way, other players in that realm as 
well, whether it is Treasury, USAID [United States Agency for 
International Development], all the key players, a whole-of-
government approach.
    Mr. Wilson. Thank you very much. I am very grateful you 
pointed out USAID, too, because they play such a vital role.
    I believe that ISIS materialized, Mr. Secretary, because of 
the vociferous withdrawal from Iraq under the previous 
administration which followed the unfulfilled red line. This 
premature decision based on a timeline rather than conditions 
based, led to the re-engagement to have to defeat ISIS.
    With the President's recent comments about pulling our 
troops out of Syria and keeping quote a peacekeeping force, how 
will this force accomplish any of the six objectives that you 
and General Milley have highlighted in your statements?
    Secretary Esper. Mr. Wilson, the force, the residual force 
in Syria right now is not a peacekeeping force. It is a force 
focused on the enduring defeat of ISIS. They are working 
closely day in and day out with the SDF to perform a number of 
tasks underneath that overarching goal and strategy. So that is 
their mission. That is what they are deployed to do and they 
are conducting those operations day by day.
    Mr. Wilson. Thank you. And General Milley, again, thank you 
for your service. It is so reassuring to military families.
    You have already cautioned that a reemergence of ISIS is 
possible. Can you cite further the assessment of ISIS 
capabilities and potential to reemerge absent a U.S. presence?
    General Milley. My assessment at this point is that if we 
do not retain a capability, an intelligence capability that 
allows us to collect and see and then act with a strike 
capability on ISIS in Syria, then the conditions for 
reemergence of ISIS will happen. It will take some time. It 
will probably take maybe 6 to 12 months something like that, 
but ISIS would reemerge if the United States went to zero.
    Now having said that, there are other forces in the area 
that also have interest in attacking and suppressing ISIS. But 
left unattended whatsoever, I think they would reemerge, 
absolutely.
    Secretary Esper. I would add that in Syria, we are also 
there with allied forces which we can't discuss in this 
session, but we have partners there as well, that are working 
with us and working, supporting the SDF and that is very 
important to our efforts as well.
    Mr. Wilson. Well, thank you, because to me this provides 
sadly safe havens for terrorists to attack American families 
around the world and back home. So thank you for what you are 
doing.
    And then General, the plan for the ISIS detainees held by 
the Syrian Democratic Forces, what is the status of maintaining 
the detainees as where they are or encouraging their return?
    General Milley. The current status is that there are 24 
detention center prisons that are manned by the SDF throughout 
different parts of Syria and they are still under adequate 
control based on the reporting that I have. So there is no risk 
at this point that I can see of some mass escape, that sort of 
thing. The SDF clearly has them under their control.
    In the Turkish incursion zones, it is the responsibility of 
the Turkish Government in that 30-kilometer incursion zone in 
the northern portion of Syria, northeastern, that is the 
responsibility of the Turkish Government, but in the rest of 
Syria, the SDF has control.
    Mr. Wilson. Thank you. We have faith in both of you. Thank 
you very much.
    Secretary Esper. I would just add, this is where the 81 
members of the ISIS campaign helps because they provide funding 
for the SDF to do that.
    The Chairman. One thing I didn't mention up front is I try 
to keep it to the 5 minutes, not to ask a 4 minutes and 59 
second question. I will give you a chance to wrap up, but when 
you see the clock go off, if you could wrap up, that would be 
great.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman. Mr. Secretary, 
General Milley, thank you for your service. Thank you for your 
testimony here today.
    To follow up on that question, that was one of the main 
things I wanted to get to in terms of the status of the 11,000 
ISIS prisoners. Obviously, the thing that most worries me is 
the threat to the homeland and obviously their escape would be 
very troubling for our security, as well as that of our allies.
    I appreciate the answer you gave, but is there any 
intention to transfer any of these prisoners to another entity? 
And if so, how would the U.S. ensure an orderly transfer of 
custody?
    Secretary Esper. I will take the first stab at that, Mr. 
Langevin. First of all, if you look at the 10,000, if we went 
into closed session and we were able to provide, I would tell 
you most of them are not the threat that we might think they 
are in terms of fighters. There is a hard-core group that I 
think we watch closely. So I want to make sure you understand 
this is a spectrum of fighters. Some are more violent, if you 
will, than others.
    That said, of the 10,000, if I remember my statistics 
right, 2,000, 2,200 or so are foreign fighters. We are trying 
to work with our allies and partners to have them repatriated 
and brought to justice. I have had numerous discussions with 
our European allies on this fact. I have discussed it with our 
Iraqi partners and others. And so we continue to engage on that 
front. Beyond that, there is no plan to--no other plans to 
transfer them anywhere other than to repatriate them back to 
their nations of origin, their home nations.
    Mr. Langevin. And Secretary Esper, what additional changes 
to the disposition of U.S. forces in Syria are planned for the 
next 6 months and are there changes to disposition plans for 
the region?
    Secretary Esper. Right now, there is no disposition plans 
that I am tracking. Of course, that could change if a threat 
changes or the commander needs to make changes on the ground, 
but I will defer to General Milley to see if he has anything to 
add.
    General Milley. That is correct. The current disposition is 
what we anticipate for the next 6 months depending on unless 
there is some kind of significant change in conditions. But 
right now, we don't anticipate that.
    Mr. Langevin. And Mr. Secretary and General Milley, what do 
you anticipate will happen to the Syrian Democratic Forces 
given the President's decision to withdraw U.S. forces from the 
Syrian-Turkish border? They were strong allies, partners with 
us and I am concerned about what is going to happen to them 
now.
    Secretary Esper. My current assessment is that the 
situation up there is generally stabilized. There is--you know, 
the no cease-fire is perfect, if you will. I think the wild 
card is always the Turkish surrogate forces that are out there, 
but, generally, my sense is that things have roughly stabilized 
in northeast Syria. But again, the Chairman was just in the 
region. He may have heard something different.
    General Milley. I haven't heard anything particularly 
different. I think it has settled down a little bit, but I 
would also caution that it is probably a little bit early to 
tell. These things take a while to unfold. The 30-kilometer or 
so buffer zone that was established by Turkey in the center and 
then by Syria and the Russians on either side of that, that is 
still an area of dynamic movement back and forth between those 
forces. We are watching it all very closely. With respect to 
what will happen with the SDF, the SDF has already made 
adjustments in that particular area. We are still working with 
them in the eastern portion of northeast Syria and then they 
are working with Russian and Syrian regimes in other parts of 
Syria. So they are continuing their cause and their fight 
against various entities that are inside Syria.
    Secretary Esper. I would like to add one thing now that I 
have thought a little bit more about your question. I think the 
other thing we have to watch out for here in the coming months 
is as Turkey begins to resettle the internally displaced 
persons within Turkey, like I said, 2 to 4, more like 3 million 
Syrians, what is that going to cause in terms of disruptions 
with the Kurds as they move them back into Kurdish areas and 
what not. So there will be some turmoil, I expect as that 
happens. That is beginning to happen now and I think we are 
going to watch that very carefully.
    Mr. Langevin. Thank you. And lastly, do we expect any 
escalation in Iran's activity in terms of intelligence reports 
that we are receiving? What do we expect within the next 6 
months? Are we tracking anything in particular that we need to 
be ready for?
    Secretary Esper. Obviously, we can't discuss intelligence 
matters in this open session, but we see a lot of regime under 
stress right now, both through the maximum pressure campaign. 
We see a lot of turmoil in the streets of many cities of Iran, 
suppression through various means that are happening. So you 
know, you hope for the best, but we are planning for the worst 
and as we see things happen or we see upticks in activity, we 
certainly will adjust our forces, adjust our posture 
accordingly.
    Mr. Langevin. Thank you.
    The Chairman. Thank you. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman. Mr. Secretary, you 
have a tough job. Syria is both a difficult and a contested 
environment. Washington is both a difficult and contested 
environment. The House recently passed a resolution disagreeing 
with the President's decision to withdraw troops from Syria. On 
the same day, the House would have been unable to pass a 
resolution authorizing keeping troops in Syria.
    You do not have an authorization for use of force to 
counter Russian influence in Syria, to hold back Iran's 
influence in Syria, to support the Kurds, to support the Syrian 
Democrat Forces in their civil war against Syria, to protect 
civilians and how they are being attacked by the Syrian 
Government itself, or to counter the Assad regime. But yet, 
those are criticisms that you receive every day that you are 
not accomplishing in your goals of Syria.
    How difficult is it for you to operate and formulate policy 
when you don't have an updated authorization use of force for 
the changing environment that you have in the Middle East?
    Secretary Esper. Mr. Turner, we think we have sufficient 
authorities right now under the 2001 and 2002 AUMFs 
[Authorizations for Use of Military Force] to conduct what--to 
do what we need to do in Syria. Those are holding up fairly 
well and so we think we can do what we need to do at this point 
in time.
    General Milley. I would echo that. I mean the 2001 AUMF 
allows us to conduct offensive strike operations against 
terrorists, al-Qaida, et cetera. ISIS, we all should remember, 
is a direct derivative of al-Qaida and it is al-Qaida in Iraq 
rebranded as ISIS. Zarqawi was its leader at one point. So the 
AUMF grants us the authorities to conduct operations and 
continue operations for the enduring defeat of ISIS.
    Mr. Turner. Well, it has been a significant debate, both in 
the House and in the Senate, as to whether or not the scope of 
what you currently have. I agree with you that the scope, I 
think, allows you to vigorously pursue ISIS and I appreciate 
you doing that. I do believe that there are a number of goals 
and objectives that are being placed upon you that do not cover 
the goals and objectives of the original AUMF, Authorization 
for Use of Military Force, and I don't think that their policy 
objectives are currently within your assignment.
    With that, I yield the rest of my time to Don Bacon.
    Mr. Bacon. Thank you, Mr. Turner, and thank you, gentlemen, 
for being here.
    My question to you is when is enough enough when it comes 
to Iran? When is our restraint being interpreted by them as 
weakness?
    We look back to 1979 with the taking of our hostages for 
over a--or diplomats for over a year. Beirut barracks bombing, 
Khobar Towers where I lost a friend. USS Cole bombing. I think 
there was a recent analysis out of the Pentagon that 608 
Americans were killed in Iraq by Shia militias or proxies of 
Iran. We can go on and on.
    At what point do they interpret this as weakness or lack of 
restraint? I would love to hear your thoughts.
    Secretary Esper. Thank you, Mr. Bacon. It is a great 
question. It is one thing, it is something that we wrestle with 
in the interagency and the Chairman and I discuss it a lot 
because your assessment of that determines how much force you 
put on the ground or the activities you do in order to deter 
further aggression. And if deterrence fails, then how do you 
respond? So obviously, we have a great intelligence community 
that helps us with that. We talk a lot with our friends and 
allies. The Chairman just came back from the region. I was in 
the region 4 or 5 weeks ago listening to them. And also sending 
messages through them, sending messages publicly. And I will 
repeat it again, the Iranians should not mistake our restraint 
for weakness. We are prepared to act if our forces or our 
interests are attacked. So the question you are asking is a key 
one and we think about it every day.
    General Milley. We all think about Beirut and Khobar Towers 
and lots of other things and I commanded in Iraq and lost 
soldiers to Iranian-supported surrogates with various munitions 
that were provided by the Iranians. So there is no illusion on 
any of our part about the malign influence of Iran.
    But when is enough enough? I firmly believe that the use of 
military force should be a last resort, not a first resort, and 
that diplomatic efforts should be exhausted and all non-
military methods to resolve a given problem should be used 
first.
    Secondly, I think that you have to have clear, unambiguous 
objectives. Thirdly, I think you have to have a reasonable 
prospect of success if you are going to use military force.
    So we have to be careful, deliberate, thoughtful. And I 
think restraint in this particular situation is an appropriate 
response up until this point. The ball is in the Iranian court. 
It depends on what they do, how big, size, scope in the future 
and that will determine what we do.
    We are in a--as one of the other Congressmen said, we are 
in a period, I think, of heightened risk with respect to Iran 
and I know this is a public hearing and we are not going to 
talk intel, but I would caution Iran publicly to be very, very 
cautious as to how they proceed.
    Mr. Bacon. Thank you, gentlemen.
    The Chairman. The gentleman's time has expired. I do want 
to follow up with Mr. Turner's point and I know to some degree 
he hates when I do this, but I agree with him on the AUMF 
issue. I just want to put a little more flavor on it.
    I don't think it is acceptable----
    Mr. Turner. Can we put that in the record twice that you 
agree with me?
    The Chairman. There is a little bit of disagreement which 
we will get to in a second here, but I don't think it is a good 
idea for us to be relying on the 2001 and 2002 AUMF in 2019. We 
can talk about what is in the 2001 AUMF and how it applies to 
now. I think that thing has been stretched beyond all 
recognition. But the 2002 AUMF, it's just ridiculous that we 
are still saying that this is an authority. I was here and I 
voted for that. The 2002 AUMF was to remove Saddam Hussein from 
power and stop the threat that he posed.
    The idea that now, today, the Pentagon is using that as the 
authority for military action, to say that that was 
legislatively approved, most of these people here don't even 
know what the hell I am talking about. They weren't here, 
didn't apply to it. So I think it is really important that we 
update that and that is the part where I am with Mr. Turner.
    And Chairman Milley, you made a very good point when we 
have spoken before that public support for what you are doing 
matters enormously. We are representatives of the public for 
good and for ill and if we are not saying anything about it, it 
gets further and further away from that public. I think we 
really need to update what we are doing here, as difficult as 
it may be, and not simply rely on authorities that I think are 
being twisted. So I want to work with Mr. Turner and others to 
figure out how we can do that in a more sensible way.
    With that, I will yield to Mr. Garamendi for 5 minutes.
    Mr. Garamendi. Thank you, Mr. Chairman. In 2018, the 
administration issued the National Defense Strategy. And in 
that strategy they talked about big power competition, China 
and Russia, and specifically raised the issue of Russia's 
influence. Russia seeks veto authority over nations on its 
periphery in terms of their governmental autonomy and 
diplomatic decisions, to shatter the North Atlantic Treaty 
Organization and change Europe and Middle Eastern security and 
economic structures in its favor.
    The withdrawal of American forces in the northern portion 
of Syria led to Russia occupying American bases as we withdrew 
after we had bombed our own bases. And it is now clear that 
Russia and Syria are very tight allies. Russia is improving its 
air bases and its naval bases in Syria, and apparently has a 
nice, cozy relationship with Iran, so much so that they are now 
providing very advanced missile air defense systems to Turkey.
    I am wondering if, in fact, the Department of Defense has 
abandoned the National Defense Strategy as laid out in the 2018 
National Defense Strategy.
    So Mr. Esper, could you please tell us if, in fact, we are 
engaged in countering Russia in the Middle East?
    Secretary Esper. Sure. Thank you, Mr. Garamendi. I think 
Mr. Smith, Chairman Smith said it in his opening remarks. 
History matters. So the relationship between Russia and Syria 
goes back, of course, to the Cold War, when it was the USSR 
[Union of Soviet Socialist Republics]. They have a base at 
Tartus for many years. That relationship in the post-Soviet 
Russia was reinvigorated----
    Mr. Garamendi. Excuse. This history lesson will take 
several months. But specifically today----
    Secretary Esper. I promise I will get there in 20 seconds. 
The relationship was reinvigorated in 2013 or 2014 when Russia 
moved in under Assad and began working closely with Syrian 
forces. So look, back to your question about the National 
Defense Strategy [NDS], the principal way that I see us 
countering Russia consistent with the NDS is through our NATO 
[North Atlantic Treaty Organization] alliance, through our 
partners. We have seen a lot of good success there. I was just 
at the London meeting last week. The NATO allies are spending 
$140 billion more annually than they had been before. We are 
focused on the NATO Readiness Initiative which----
    Mr. Garamendi. Excuse me, sir. Can you please focus on 
Syria, Turkey?
    Secretary Esper. Sure. My biggest concern with Syria and 
Turkey is actually Turkey-Russia. The concern is that Turkey is 
moving out of the NATO orbit, as I have said publicly on 
several occasions. I think our challenge is to figure out how 
we can get them back closer into the NATO alliance because I 
think they are a critical and longstanding 70-year, nearly 70-
year partner of ours.
    Mr. Garamendi. And the withdrawal of American troops from 
the northern Syria, how did that help carry out the goal you 
have just stated?
    Secretary Esper. So I think when you look at the situation 
at the time, we faced maybe one or two scenarios. One would 
have been to allow our troops to stand there in the face of a 
Turkish onslaught which both Chairman Milley and I agreed 
wasn't worth risking our soldiers' lives.
    Option two would have been an incredible option which is 
fighting a longstanding NATO ally.
    Mr. Garamendi. I think you missed one step that preceded 
that and that is the President's decision to withdraw. How did 
that address the big power competition? Did that allow Russia 
to exert its influence in the area, including its troops, 
displacing American troops?
    Secretary Esper. The decision to withdraw was precipitated 
by months of events leading up to that. It culminated in 
President Erdogan speaking to the President and saying very 
clearly that he is going into Turkey. He is going into Syria
    The Chairman. I am sorry, Mr. Esper. I think we may be 
talking about the decision--not the decision to withdraw the 
last couple of dozen, but the decision 8 months earlier to 
withdraw period. That decision, the signal that sent.
    Mr. Garamendi. Actually, the decision you just described 
preceded the ultimate decision that did lead to the withdrawal 
of American troops and the replacement of American troops by 
the Russians and the Turks and the Syrians. My question really 
goes to the heart of the National Defense Strategy which 
presumably is big power competition in which case we have 
seriously lost a major element of our position in the region.
    Secretary Esper. So I think, I am a little over time, but 
if I could----
    The Chairman. Just quickly, yes.
    Secretary Esper. I think the bottom line--I have said this 
privately, I have said this publicly--is I am looking at 
everywhere we are in the world to include the Middle East, to 
withdraw forces, to draw down forces responsibly, so that we 
could reallocate them toward great power conflict in Europe and 
principally in Asia, INDOPACOM [United States Indo-Pacific 
Command].
    Mr. Garamendi. And then----
    The Chairman. I am sorry, we are over time. I think that is 
an excellent point. The great power competition isn't just in 
Europe and Asia.
    Mr. Rogers.
    Mr. Rogers. Thank you, Mr. Chairman. I thank both of you 
for being here and for your service and sacrifice for our 
country.
    Secretary Esper, in your opening statement, you said that 
the stability of the Middle East remains vital to our national 
interest. And you also listed it as a priority to--or the 
mission priority was to deny safe haven to those who would do 
us harm.
    Now there are some in the Congress and on this committee, 
who believe that it is time to immediately pull out all of our 
troops from Afghanistan. What would be the consequence to those 
two priorities if we did, in fact, remove all troops?
    Secretary Esper. In the context of Afghanistan--and I don't 
want to upset negotiations that may be happening presently with 
the Taliban and others--I would say this much. We have an 
important counterterrorism mission in Afghanistan. That means 
that we have got to make sure that Afghanistan never becomes 
again a safe haven for terrorists to strike the United States.
    Our commanders, I have spoken with them, General Milley 
has, so that we could reduce our force presence there and still 
be able to conduct that mission. I am interested in reducing 
our force presence for the same reason I just outlined for Mr. 
Garamendi. I want to reallocate forces. So I think we need to 
make sure we can do that and the best way forward in 
Afghanistan is through a political agreement that allows us a 
long-term, sustainable path that ensures that the government in 
charge does not allow that safe haven to exist.
    Mr. Rogers. Thank you. General Milley, in our work on the 
Homeland Security Committee, we have been tracking a group that 
goes by HTS, which stands for Hayat Tahrir al-Sham. This group 
seems to be primarily composed of Nusra Front fighters and has 
publicly broken with al-Qaida.
    Can you tell us much about this group and their 
capabilities?
    General Milley. In an unclassified session, they are a 
small bunch of groups of al-Qaida that is operating in the 
region. They are quite dangerous. They are quite violent. And 
they are quite ideologically committed to their cause and they 
are willing to die for their cause. They are probably an 
irreconcilable group. Some groups, like the Taliban, who we 
negotiated with and we will see where that negotiation goes. 
Other groups like al-Qaida, ISIS, HTS, and so on are very 
deeply committed to their cause and there is really only one 
way to deal with them and that is to kill them or to capture 
them. And HTS falls into that category.
    Mr. Rogers. Thank you very much. Mr. Chairman, I yield the 
balance of my time to Banks from Indiana.
    Mr. Banks. I thank the gentleman for yielding. While we are 
focused today on Syria, the situation in the Middle East, the 
fight against ISIS today, I want to talk about the future for a 
moment. As both of you know, I am co-chairing the Future of 
Defense Task Force with Mr. Moulton on the other side of the 
aisle.
    Secretary Esper, could you talk for a moment about the new 
capabilities that we will have and be able to use when JEDI 
[Joint Enterprise Defense Infrastructure] goes live and why 
that is so important and why delays would be costly in our 
fight against terrorism specifically?
    Secretary Esper. Sure. First of all, we have migrated many 
things to many clouds so far. The key piece about the next 
element, the JEDI piece, is that you can get a lot of the 
warfighting capabilities if you are into the cloud. And once 
you are able to do that, where you have that cloud base, you 
have two things. First of all, you have better security. But 
secondly, is you can then put on top of that AI, artificial 
intelligence, and allow you to think and act a lot more quickly 
when you are in a warfight and through multiple domains. So it 
is critical that we move to the cloud as quickly as possible.
    I underwent an education process, if you will, and I 
entered this job again in July and took a couple of months and 
I have had a chance to talk with many of you about JEDI. It is 
vitally important that we move to the cloud quickly, 
particularly this cloud. Again, that is underway and we will 
continue to move that.
    Mr. Banks. Can you elaborate on what further delays will 
cost us?
    Secretary Esper. Well, first of all, we will lose ground to 
the likes of the Chinese in terms of their ability to act, 
think, and fight us quicker than we are able to fight them. 
Secondly, if we don't move this piece quickly into the cloud, 
what we may force the services to do is to go in their separate 
directions with separate clouds or uncoordinated IT 
[information technology] plans. So that is why it is very 
important that we move as quickly as we can and onto the JEDI.
    Mr. Banks. Can you talk for a moment about the current 
contest by Amazon. You are still moving forward in the 
contracting process so that we don't afford further delay, is 
that correct?
    Secretary Esper. My understanding is that we are still 
moving forward. I don't want to comment any further because 
obviously another lawsuit has been raised, so it probably would 
be imprudent for me to say anything.
    Mr. Banks. But the bottom line, as you have said already, 
any further delays are costly, not just in our strategic 
competition with China and Russia, but in the fight against 
terrorism?
    Secretary Esper. Yes, sir. Absolutely, and I think there is 
bipartisan agreement that we need to move quickly in terms of 
into the cloud and into this next domain of warfare.
    Mr. Banks. Thank you. I yield back.
    Mrs. Davis [presiding]. Thank you. Ms. Speier is next.
    Ms. Speier. Thank you both for being here. Secretary Esper, 
how many troops did we have in Syria before the President's 
conversation with President Erdogan?
    Secretary Esper. I can't recall the specific numbers, but 
over a thousand.
    Ms. Speier. Over a thousand.
    Secretary Esper. A little over a thousand.
    Ms. Speier. And then the President had the phone call, then 
Turkey began its Operation Peace Spring. The President said we 
were removing all of our troops on October 14th. And then it 
was said that we were only going to stay in Syria to guard the 
oil. And how many troops were going to be there to guard the 
oil?
    Secretary Esper. Well, first of all, the initial plan was 
to retain some troops at An-Tanf garrison down south. So that 
was never off the table, if you will. We can talk in closed 
session about that number.
    The current number in northern Syria is somewhere between 
500 and 600 at this point.
    Ms. Speier. Now are we there to guard the oil or are we 
there to repel ISIS?
    Secretary Esper. We are there to ensure the enduring defeat 
of ISIS, so a subtask of that is we have directed to our 
commander on the ground is to deny ISIS's access to the oil 
because whoever controls that oil controls the resource that 
allows them to buy weapons, equipment----
    Ms. Speier. I understand that.
    Secretary Esper [continuing]. Fighters, to provide for 
their communities, et cetera.
    Ms. Speier. Ambassador Jeffrey and Amnesty International 
have indicated that there are isolated war crimes going on in 
Syria by Turkish troops. Can you speak to the ethnic cleansing 
that I think all of us have been concerned about going on there 
by the Turkish forces?
    Secretary Esper. I am not aware of any of those in 
particular. I will tell you the first week that the Turks moved 
in I spoke out publicly that if there were reports on the 
battlefield coming through the media that war crimes may have 
been committed and I said very clearly those should be 
investigated and persons held accountable.
    Ms. Speier. Persons being the Turkish----
    Secretary Esper. Well, whoever. First of all, whoever 
committed them on the ground and then whoever sanctioned them 
or directed them in the chain of command.
    Ms. Speier. So you haven't been in contact with Ambassador 
Jeffrey about the incidents that they have reported?
    Secretary Esper. No, I have not.
    Ms. Speier. All right. Chairman Milley, you referenced 
earlier in your comments that you want to see Afghan-to-Afghan 
talks taking place in terms of a ceasefire. So my question is 
why aren't the Afghans at the table and negotiating with the 
Taliban?
    General Milley. It is really, I think, Congresswoman, the 
other way around. It is my understanding anyway that the 
Taliban is refusing to formally negotiate with the Government 
of Afghanistan because they don't recognize the legitimacy of 
the government. So the Taliban is not going to negotiate. They 
have got this three-way negotiation happening with the United 
States being the third partner. And then there are other 
players involved as well.
    So the direct negotiations, the formal direct negotiations 
between the Government of Afghanistan and the Taliban, to my 
understanding is not happening not because the government 
doesn't want to do it, but because the Talibans don't want to 
do it. But I think, and I don't want to presuppose outcomes 
here, but I think we are closer rather than further away on 
that particular task happening on Afghan-to-Afghan 
negotiations. And that would be a good thing because the war 
must come to an end and the only responsible way to do that is 
Afghans talking to Afghans.
    Ms. Speier. So you will make sure that there are female 
Afghanis at the table then?
    General Milley. I am not running the negotiations. That is 
part of the Department of State and Zal Khalilzad is the 
ambassador to do that and we are not--we are supporting with 
military operations on the ground, but we are not part of those 
negotiations. So we don't have the responsibility to do that.
    Ms. Speier. All right. I think there has been a lot of 
concern about discipline and the respect for the law of war as 
a reason to keep our troops safe and maintain command authority 
needed to fight effectively. Yet, last month, the President 
pardoned three war criminals. Chairman Milley, how does that 
impact our ability to maintain discipline in the ranks?
    General Milley. Well, let me, first, all three cases are 
different. Only one of them, Lieutenant Lorance, was convicted 
of war crimes and served 7 years in prison for those war 
crimes. The second case, Gallagher was convicted of a war crime 
taking a photograph of a dead body. He was not convicted of 
murder. That was an allegation. So he wasn't convicted in a 
court of law of that. In the third case, Golsteyn, he never 
went to trial, so we don't know if he was convicted or not 
because he never went to trial. In this country, you are 
innocent until proven guilty and he was never proven guilty. So 
I mean each one of those is different and I don't want to group 
them and say they are, in fact, war criminals because you have 
to be proven that in a court of law. That is point one.
    Point two, I think for all of us to remember and I have 
mentioned this to all of us in uniform, the President of the 
United States is part of the process. He is the Commander in 
Chief. So he has the full authority under the Constitution.
    The Chairman [presiding]. I apologize. We are over time and 
I will just take a stab. That is not what she is asking. She is 
asking how does it affect overseas, the way you phrased it. I 
am sorry.
    General Milley. Well, I was getting there. As part of the 
process, and good order and discipline is maintained in a lot 
of different ways, but one of them is to maintain adherence to 
the process and the President of the United States is part of 
the process. And we are maintaining good order and discipline 
within our military.
    The Chairman. I am sorry, we have got to move on. It is an 
important topic, but it was brought up before.
    Ms. Speier. I yield back.
    The Chairman. Mr. Lamborn.
    Mr. Lamborn. Thank you, Mr. Chairman. And before I ask my 
question, I want to commend you and the ranking member for an 
agreement on the NDAA. We have all worked hard, but the two of 
you have put in countless hours and we appreciate that. No one 
ever gets everything they want, but I think we have a product 
that we can all be proud of. So I want to thank you for that.
    And I also want to thank Representative Wilson for his work 
on the widows' tax, in particular.
    Okay, my question is about Iran. Conventional wisdom has it 
that Iran, the Persians, if you will, control four Arab 
capitals in the region. And there is a lot of angst about what 
they are doing in Syria. What are they doing militarily in 
Syria and what are we doing about it? For both of you, please.
    Secretary Esper. Well, thank you, sir, for that question. 
Clearly, Iran has a lot of influence in many capitals in many 
parts, and not just the Middle East, but also Africa, in 
Afghanistan as well. It is hard to discuss that in this 
session. We would have to go to closed session, but you know, 
it is everything from monetary support, payment of fighters, 
arms, arms trafficking. It is political support as well, so 
that is to just kind of give you the wave tops of what that 
looks like. But I will say the maximum pressure campaign and 
again, we can't get into this in this session, but as the 
revenues have dried up as a country, it has also affected their 
ability to pay and do some of those things. And that is a good 
thing.
    Mr. Lamborn. General Milley.
    General Milley. As the Secretary mentioned, there is not a 
lot we can actually say specifically here in this session, but 
Iran is very, very active with their various special forces and 
other capabilities, not only in Syria, but also in Iraq.
    Mr. Lamborn. Thank you. I am going to yield the balance of 
my time to my friend and colleague who has the honor of 
representing Pensacola, Representative Matt Gaetz.
    Mr. Gaetz. I thank the gentleman for yielding. Mr. 
Secretary, I want to thank you and I want to thank the 
President for instituting a review of the Saudi program. I also 
wish I had more time to reflect on the heroism of the sailors 
who ran toward gunfire and who also informed on the location of 
the shooter during this terrorist attack. During this review 
that you are conducting is the program paused? Are we going to 
be taking in new Saudi students?
    Secretary Esper. So first of all, my condolences to your 
constituents. And you are right. There was a lot of heroism on 
the ground that day, a very tragic day for everybody.
    So yes, we have directed, if you will, a standdown that 
would limit Saudi participation in our U.S.-based training to 
classroom training only until we can do expedited vetting of 
all Saudi students here in the United States.
    I spoke to the Deputy Defense Minister yesterday, by the 
way, a graduate of Pensacola Naval Air Training. He agreed. He 
fully supports this. They are going to do parallel vetting as 
well to make sure we understand----
    Mr. Gaetz. During that time, new incoming students or not 
new incoming students?
    Secretary Esper. I can't answer that affirmatively, but I 
would have to get back to you on that.
    [The information referred to was not available at the time 
of printing.]
    Mr. Gaetz. Mr. Secretary, this is an issue of great 
importance to my constituents.
    Secretary Esper. It is a very fair question, but----
    Mr. Gaetz. I would hope that very soon, perhaps within the 
day, you would be able to make a public statement as to whether 
or not we are taking in new students while you are undergoing 
that vetting process.
    Secretary Esper. I think I know the answer, but I don't 
want to tell you something. I want it to be affirmative when I 
tell you. I think it is a very reasonable thing to do, right?
    Mr. Gaetz. Thank you. There are a number of Saudis that are 
currently with us on your base, NAS [Naval Air Station] 
Pensacola. Who currently has access to those people during the 
investigation?
    Secretary Esper. Of the dozen or so that were immediate 
friends, acquaintances, et cetera of the alleged killer, the 
FBI [Federal Bureau of Investigation], Department of Justice 
[DOJ] has control of them on the base.
    Mr. Gaetz. So who has access to those people? I 
specifically want to know are embassy personnel, clerics, 
others speaking with, talking to, perhaps providing 
communication with these people who we are holding for 
questioning.
    Secretary Esper. I don't know exactly. I want to say a Navy 
Muslim chaplain they have access to them. Certainly, the FBI, 
DOJ does.
    Mr. Gaetz. Do any other Saudis have access?
    Secretary Esper. I think the Saudi commander has access to 
them. He is the one who is keeping them restricted onto that 
site.
    Mr. Gaetz. How about embassy personnel, Saudi embassy 
personnel?
    Secretary Esper. I don't know.
    Mr. Gaetz. That is also really important because to me, 
this is----
    Secretary Esper. I can assure you, somebody knows. I just 
don't know right here as I sit here. We will get back to you on 
that, too.
    [The information referred to was not available at the time 
of printing.]
    Mr. Gaetz. I appreciate your prompt attention to this 
because again, that is something that I think deeply informs on 
what we can do as policymakers to try to improve this 
relationship with the kingdom. Because at some point, there is 
only so much of this that we are going to be able to take or 
the kingdom tells us there is some quirky part of the royal 
family, you know, that is off doing some different thing.
    These Saudi students, they are connected folks when they 
end up in Pensacola and I would appreciate your great effort 
and I look forward to those answers. I thank the chairman for 
his indulgence, and I thank the gentleman for yielding.
    The Chairman. Thank you, and I want to echo those concerns. 
I mean certainly the tragic event in Pensacola deserves our 
attention and sympathy and admiration for the people who 
responded. But the broader issue Mr. Gaetz gets at, the 
vulnerabilities that we might face from Saudi presence in the 
U.S., is something we need to address now and be as transparent 
as possible. So I appreciate your answers on that and look 
forward to the followup as well.
    I am sorry, Mr. Secretary?
    Secretary Esper. And just to expand. Of course, I agree 
with what we are saying here, but to expand, we are going to 
look not just--we are going to look at all foreign nationals 
coming into the United States to make sure we have the best, 
strongest vetting procedures we have so we are confident that 
regardless of where folks come from, we know who is coming to 
our country. It is a very important program. We just have got 
to get it right. We have to do it better.
    The Chairman. Thank you. Mr. Moulton.
    Mr. Moulton. Thank you. Thank you very much, Mr. Chairman.
    Secretary Esper, I would like to start with you. Regarding 
Iran, my understanding is the administration's three objectives 
for Iran are to limit their nuclear weapons capabilities, to 
deter regional aggression, and to bring Iran back to the 
negotiating table to get a stronger deal. Is that correct?
    Secretary Esper. I am going to cast it a little bit 
differently. Our overall goal is to get Iran to be a normal 
country that behaves normally. The key aspects that we are 
focusing on, actually four things. Nuclear weapons; they can't 
have access to nuclear weapons and the means to produce them. 
Number two, missiles. Number three, their aggressive, malign 
behavior throughout the region and beyond. And then number four 
is hostage taking.
    Mr. Moulton. Okay, so hostage taking has never been stated 
before, but let us focus on the first three.
    Secretary Esper. Sure.
    Mr. Moulton. That we can all agree on. Since President 
Trump pulled out of the Iran nuclear deal, against the best 
advice of Secretary Mattis, Secretary of Defense; Chairman 
Dunford, the Chairman of the Joint Chiefs of Staff; literally 
hundreds of military and national security professionals, even 
many who were opposed to signing the deal initially, but 
recognized the national security risk of pulling out and 
breaking our word as a country, breaking our word to our 
closest allies in the world. Since doing that, have you seen 
any evidence of success for the administration's strategy?
    Secretary Esper. Yes, I have, in the context of maximum 
pressure campaign has denied them resources because of the 
dramatic effect it has had on their economy. We have seen the 
Europeans make movements in our direction. You saw Europeans 
expressing concern about how Iran has been violating----
    Mr. Moulton. I am sorry, but Europeans were not listed as 
part of the goals of the administration's strategy. These are 
the goals. The goal is to limit their nuclear weapons 
capability and Iran is now advancing their nuclear weapons 
capability. They are much closer to having a nuclear bomb than 
they were under the deal. International and American inspectors 
verified they were following the deal. Since pulling out, Iran 
has advanced their nuclear weapons capability.
    Now the second point was deterring aggression. Now Iran was 
attacking us before. Iran attacked Americans in Iraq. I have 
friends who were grievously wounded and killed by Iranian 
weapons in Iraq. Iran has now rejoined those attacks and we 
have gone through all the ways in which Iran's regional 
aggression has picked up. But it was pretty quiet under the 
deal. There was no question that those attacks have picked up 
as we have pulled out.
    Secretary Esper. I am not sure. What we saw after the deal 
was consummated and money was returned to them, we saw action 
uptick in activities and in terms of their missile program as 
well.
    Mr. Moulton. Oh wait, so you would say that there is less 
activity now than when we had the deal? I mean they weren't 
attacking Saudi oil fields. That is just an absurd conclusion. 
It is obviously not true.
    Now on the third point, getting Iran to the negotiating 
table, we were with them at the negotiating table. We had lines 
of communication with them while under the JCPOA [Joint 
Comprehensive Plan of Action]. We do not have those lines of 
communication now. Have you seen any evidence that they are 
coming back to the negotiating table to negotiate a stronger 
deal to further limit their nuclear weapons capability?
    Secretary Esper. No, but that is the----
    Mr. Moulton. Thank you.
    Secretary Esper. Well, but there is more of an answer to 
this question.
    Mr. Moulton. No, no, no. I understand the administration 
wants to talk about the maximum pressure campaign and all the 
ways it is hurting their economy and everything. But I am just 
holding you to your stated strategy, to your stated strategy. 
And on all three points the administration's strategy is 
failing. The administration is worse off. We are worse off. We 
are less safe than we were under the JCPOA.
    Secretary Esper. I am not sure----
    Mr. Moulton. I have only a minute left so I want to----
    Secretary Esper [continuing]. I am not sure you can make 
that statement. I think strategies take time to play out and I 
think if you look, not everybody agrees to include the United 
States----
    Mr. Moulton [continuing]. You might be right in the future, 
but we are talking about today. There is no evidence that this 
is working.
    The Chairman. Let us have one person talking at a time if 
we could.
    Mr. Moulton. General Milley, I think I will just go on to 
you. Thank you for your earlier clarifications about the three 
servicemen because to your point innocent until proven guilty, 
only two of them have been convicted of war crimes. So we have 
two out of three who are war criminals.
    Now I received a text from a sergeant major of the Marines. 
This happened. And he said Trump involving himself in all the 
cases of these guys who conducted themselves inappropriately in 
a combat zone like Eddie Gallagher is appalling, basically 
setting a precedent that the rule of law in a combat zone 
doesn't apply. It encourages folks to start burning villages 
and pillaging like Genghis Khan. That, and if you don't like 
your ruling, just tell Trump personally and he will overturn 
it. The man has greatly marginalized the positions of the 
service leaders.
    Is this sergeant major of Marines wrong?
    General Milley. I think that the Uniform Code of Military 
Justice, and the means by which we maintain good order and 
discipline, are a critical element in order to maintain that 
capability in some level of humanity in combat zones. I think 
it is critical. I understand where the sergeant major is coming 
from. And I know the advice that was given which I am not going 
to share here, but the President of the United States is part 
of the process and he has the legal authority to do what he did 
and he weighed the conditions and the situation as he saw fit. 
He is part of the process.
    We do maintain and we will maintain good order and 
discipline. We will not turn into a gang of raping, burning, 
and pillaging throughout as the sergeant major implied. That is 
not going to happen or anything else.
    Mr. Moulton. I appreciate the effort. Let us just be 
careful here. This is a sergeant major of the Marines. He has 
got a Purple Heart and Navy Cross.
    General Milley. Yes.
    Mr. Moulton. And we are defending the actions of a draft 
dodger.
    General Milley. I am not defending----
    The Chairman. I am sorry. Mr. Moulton, this could go on for 
a very long time and----
    General Milley [continuing]. And I respect your views and 
the sergeant major's views.
    Mr. Moulton. Thank you, Mr. Chairman.
    The Chairman. I think I would just say, yes, the President 
is part of the process. But what we are concerned about is the 
way he is being part of the process right now is unhelpful, as 
Mr. Moulton describes.
    Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman. Gentlemen, when we have 
these meetings, I bring my computer so that I can pull up the 
map of the Middle East and every time I pull that map up it 
reminds me of the need to have partners that have common values 
and common interests. And we seem to have very few that have 
both of those. We obviously have Jordan. We have Israel. But 
when I look at the others, I will tell you that I think that 
the vote of disapproval or whatever the proper term is with 
regards to the withdrawal of the troops, I trust your judgment 
on that, even though I voted for that resolution. I think that 
was--my vote as many votes was indicative of the fact that we 
believe that the Kurds have been a good partner and we believe 
that as of today, Turkey is a partner of necessity, but not a 
good partner. And I think that we recognize that we need Turkey 
to be a good partner. And we hope that that happens sooner 
rather than later.
    I have been to the refugee camps in Turkey. I have been to 
the ones in Jordan. It is a tough scenario. It is basically--
the Middle East is a kaleidoscope. Every time one thing 
changes, a whole bunch of other things change.
    I do have a little bit of an issue with the statement on 
the AUMF. I think that the AUMF does absolutely give us, give 
you the authority on behalf of the United States to strike 
terrorists and terrorist cells where you see them. I do not 
believe that the AUMF of 2001 and 2002 gives us the authority 
to base in countries uninvited. And I think that is a further 
discussion that Congress needs to have and whether or not we 
are allowed to base uninvited in countries almost 20 years 
after an Authorization for Use of Military Force that did not 
include those countries was passed.
    So with that said, if I can focus more narrowly on one 
thing. General Mattis, who I have a tremendous amount of 
respect for, wanted to move to preparing for China and Russia. 
One of the victims of that was the JSTARS [Joint Surveillance 
Target Attack Radar System] program, the E-8C. They are no 
longer flying in CENTCOM [United States Central Command]. They 
have just been removed.
    My question is are the ground forces in the CENTCOM area of 
responsibility receiving the proper intelligence, surveillance, 
and reconnaissance [ISR] coverage they need to detect and 
counter the ground threats and what additional things do you 
need from this committee to make sure that the forces have the 
adequate coverage?
    General Milley. The commander, General McKenzie, he has not 
requested additional ISR. In fact, CENTCOM for the last many, 
many years has the preponderance of ISR of the U.S. military. 
PACOM [United States Pacific Command] gets a lot and EUCOM 
[United States European Command] gets a lot, but CENTCOM gets a 
lot. So I don't think they are at a lack of adequate ISR, that 
which we have. There is not a commander out there who doesn't 
want more ISR. Everybody wants more all the time, but General 
McKenzie has not come up on the net and said hey, I need this, 
that, or the other thing immediately sort of thing. And if he 
did, we would give it to him.
    Mr. Scott. Mr. Secretary, I understand that the E-8C, the 
recap [recapitalization] of the JSTARS was not a system that we 
would have necessarily used against Russia and China or near-
peer competitors. But I do believe it was a mistake to not go 
forward with the recap of that program. It is a low-cost 
program that we could have used certainly anywhere in the 
Western Hemisphere it would have helped us, and Africa, we 
could have used it in the majority of the areas where we are 
currently operating. And while I recognize this decision was 
made under a previous Secretary, I just wanted to express my 
belief that it was a mistake not to go ahead and recap. I think 
that it will be seen as the same mistake as canceling the F-22 
buy before the replacement system, before the F-35 had proven 
itself.
    So I respect both of you. You know, I do think the 
committee needs to look at whether or not the AUMF from 2001 
and 2002 gives us the authority to base in a country uninvited. 
With that, I yield the remainder of my time.
    The Chairman. Thank you. Mr. Brown.
    Mr. Brown. Thank you, Mr. Chairman. I want to return to 
Syria and certainly express my concern that that was a grave 
mistake that the President's decision to relocate our forces to 
the northeast region of Syria and to essentially abandon our 
partners, the Kurdish Syrian Democratic Forces. I think it runs 
counter to your work, your effort, your responsibility, our 
responsibility in the counterterrorism fight, but I also think 
it runs counter to our objectives as stated in the National 
Security Strategy and National Defense Strategy which is to 
prepare for a great power competition, and in this case, 
competition presented by Russia.
    Just this Sunday, the commander in chief of the Kurdish-led 
Syrian Democratic Forces, he wrote ``we know that we would have 
to make painful compromises with Moscow and Bashar al-Assad if 
we go down the road of working with them,'' certainly 
expressing his lack of confidence in our support to him and his 
forces. He goes on to say but if we have to choose between 
compromises and the genocide of our people, we will surely 
choose life for our people. We are seeing Russian flags that 
are flying outside of the Turkey-Russia patrol area. We know 
that Russia now has taken possession of military bases built by 
U.S. taxpayers and Russia is essentially supporting the Syrian 
Government in regaining control over the entire country and 
establishing itself a sphere of influence for Russia.
    Can you please tell us what concerns you have about 
Russia's increasing presence in Syria?
    Secretary Esper. Well, as I look at the global situation, 
somebody mentioned before we compete with Russia all around the 
globe, principally in Europe, but in other places, the Middle 
East we discussed, and even Africa. My principal concern with 
regard to the Kurds and the SDF specifically was that the 
mission was the----
    Mr. Brown. Actually, let me just fine tune it. It is 
Russia. Are you concerned about Russia's growing influence in 
Syria and what impact that will have in their ability to have 
even an expanding influence in the entirety of the Middle East? 
I am concerned about Russia.
    Secretary Esper. I am concerned about Russia in other parts 
of the Middle East.
    Mr. Brown. Are you concerned about Russia in Syria?
    Secretary Esper. Not as much because they have had a pretty 
solid footprint there now for 4 or 5 years since they first 
moved in.
    Mr. Brown. Do you see that footprint expanding?
    Secretary Esper. It has expanded in the last month and a 
half.
    Mr. Brown. Does that concern you?
    Secretary Esper. Some, but I am more concerned about 
Russian expansion into Egypt, into Saudi Arabia, into other 
places, if you will. There is only so many resources and time 
you can focus on and the bigger issue with Russia was the nexus 
with Russia and Turkey. That is what really concerns me, is the 
Russia-Turkey nexus.
    Mr. Brown. And I don't have much time here. I have 2 
minutes left. So let me turn to Afghanistan and both of you 
mentioned Afghanistan in your opening comments and the presence 
of ISIS in Afghanistan. You know, I traveled to Niger where we 
have about 800, 900 troops there. In Syria, our number was 
about 900. And using the various authorities, [section] 127 
Echo, Triple 3 [section 333], we seem to have been effectively 
supporting local partners in the counter-VEO [violent extremist 
organization] efforts.
    So we have got 14,000 troops in Afghanistan. Have you 
developed, have you considered an option where we have a 
minimal footprint purely for the purposes of counter-VEO 
operations regardless of the stability and the viability of the 
Afghan Government and their forces?
    Secretary Esper. I will take the first stab, but again, the 
Chairman, just have him come back, more in his lane. I will say 
the short answer is yes. The commander on the ground will tell 
you that in some ways you can't disaggregate the CT 
[counterterrorism] from the train, advise, and assist mission, 
if you will, because the Afghans are playing an increasingly 
important role. And, of course, we have to protect our 
intelligence people out there and that is probably as far as I 
can go on that matter right now, right here.
    Chairman.
    General Milley. The short answer is yes. We have multiple 
options. That is one of them.
    Mr. Brown. And in the classified setting, would you be able 
to brief us on what that minimal footprint looks like?
    General Milley. Yes, we can do that.
    Mr. Brown. Thank you. I yield back, Mr. Chairman.
    The Chairman. Thank you. Mr. Wittman.
    Mr. Wittman. Thank you, Mr. Chairman. I would like to thank 
Secretary Esper and Chairman Milley for joining us today. 
Secretary Esper, I wanted to focus on the outcome of my trip to 
Turkey last year. I had some conversations with Erdogan defense 
officials, Erdogan administration defense officials, defense 
committee members from parliament. And we talked about a lot of 
different issues, but one of the areas we talked about was the 
relationship between Turkey, PKK, and YPG or really lack 
thereof, and what that was doing to the U.S.-Turkey 
relationship and how they saw things that were happening there.
    I wanted to get your perspective on how do you think we 
reconcile what appears to be an inconsistent approach in 
training Syrian YPG forces that potentially as things ramp down 
or they spread out from Syria could actually go back and join 
the fight with PKK forces within Turkey which is really 
inflammatory towards the Turks in how they see that. So is 
there a way that we can tailor that policy to best suppress 
ISIS forces in Syria without subsequent negative consequences 
for Turkey? Because they look at it and just say how can you 
support these folks that are perpetrating terrorism in Turkey. 
And of course, what we are saying is listen, let us help defeat 
ISIS in Syria and then we will make sure we turn back around. 
But I wanted to get your perspective on that.
    Secretary Esper. I think the fundamental difference, Mr. 
Wittman, and thank you for the question, is that we have 
fundamentally different views, we being the United States and 
our NATO allies, on whether or not the YPG is a foreign 
terrorist organization. We don't think they are, nor do many, 
if not all of our NATO allies. But the Turks do. That is one 
reason why they are holding up some actions in NATO right now 
to the detriment of the alliance. So I think we have to 
reconcile that. The State Department has the lead in terms of 
how we designate foreign terrorist organizations.
    I think you rightly noted, too, and it is fair to say there 
is fluidity on the ground between people in these groups. And 
it is hard to pin that down. But we make our best assessment as 
to who we think really is a terrorist organization and who is 
not. And Turkey wasn't happy with the SDF either because it 
included members of YPG, but other groups as well. But the fact 
that YPG members were part of that broader coalition was one of 
the reasons why they didn't like the SDF. They didn't like the 
SDF along the border, et cetera, et cetera.
    Mr. Wittman. Yes, I think their concern was and they said 
listen, we have clear evidence that YPG forces and even SDF are 
infiltrating into PKK. We believe that they are part of 
perpetrating those attacks within Turkey. So that is the basis 
of their concern. I know that and we said the same thing that 
you said and that is we are trying to distinguish forces that 
are sympathetic to U.S. causes versus those that may perpetrate 
harm against Turkey.
    Secretary Esper. And we try to take those considerations 
and address them. That is why we were working hard up and to 
the point of the incursion to establish the safe zone, if you 
will. And it was still unsatisfactory to the Turks with regard 
to what we were doing. They had clear ambitions as to how far 
they wanted to go, the depth, and the extent of their 
operation, and what they wanted to do afterward.
    Mr. Wittman. Thank you. I am going to yield the balance of 
my time to Mr. Waltz.
    Mr. Waltz. Thank you, Mr. Wittman. Gentlemen, are you 
familiar with the case of Staff Sergeant Robert Bales, 
convicted of the Kandahar massacre in 2012?
    General Milley. Yes.
    Mr. Waltz. That was a sergeant who literally lost his mind, 
walked into an Afghan village, and machine gunned 16 Afghans. 
He is now convicted of that crime, of that war crime. He is in 
life in prison. Do you have any indication that the President 
is considering releasing, pardoning, Staff Sergeant Bales for 
his war crimes that you know of?
    Secretary Esper. No.
    Mr. Waltz. I would submit to my colleagues that is a war 
criminal and we need to be very careful about very loosely 
throwing around that term. In the case of Navy SEAL [Sea, Air, 
and Land teams] Chief Gallagher and by the way, I would remind 
my colleagues, was acquitted of murder. He was convicted for 
taking a photo with a dead body. He is now retiring. He is no 
longer commanding SEALs. He is not going to be promoted. Is it 
within the President's authority, given the balance of his 
service, his multiple valor awards, his numerous combat tours, 
to say that retiring, no longer commanding SEALs, not being 
promoted, but also not being demoted, is that within his 
authority?
    Secretary Esper. Just to clarify, he was promoted, but he 
is now retired. And all that was within the President's 
authority.
    Mr. Waltz. Do you believe that he deserves to be called a 
war criminal?
    Secretary Esper. I would have to review the crime that he 
was charged with which was appearing with a corpse. I would 
have to read it and understand it. I can come back to you on 
that.
    Mr. Waltz. But he was acquitted of the murder charge and in 
fact, another SEAL admitted on the stand pretty dramatically 
that he was the one that killed, and a mercy killing, knowing 
that that ISIS fighter was----
    Secretary Esper. He was acquitted of the murder charge, but 
convicted of holding up the corpse. That would be a violation 
of the law of armed conflict as I understand it during my time 
as a military officer.
    The Chairman. We are over time. The gentleman's time has 
expired. Mr. Khanna.
    Mr. Khanna. Thank you, Mr. Chairman. Thank you, Mr. 
Secretary and General, for your service.
    I want to follow up on the exchange you had with 
Representative Speier. And I understand your position is that 
the 2001 AUMF gives us the authority to fight ISIS and that we 
are there to protect the oil because we don't want ISIS to get 
it.
    I disagree with that theory, but I want to bracket that and 
see if you would at least acknowledge that we don't have the 
authority to do what the President is calling for. President 
Trump on October 27th stated clearly, ``we are leaving soldiers 
to secure the oil. Now we may have to fight for the oil. That 
is okay. Maybe somebody else wants the oil in which case they 
have a hell of a fight. It can help us because we should be 
able to take some also and what I intend to do, perhaps make a 
deal with Exxon Mobil, one of our great companies.''
    Would you acknowledge that this Congress has not authorized 
in any way the United States to go in and steal Syrian oil and 
make money off of it?
    Secretary Esper. I am not aware of the Congress granting 
any authority along those lines. I am also unaware of what 
inherent authorities the President does or does not have in 
this regard. I am focused on the military tasks denying ISIS 
access to the oil.
    Mr. Khanna. Can you assure us at this point that there are 
no plans for us to try to take the oil and sell the oil?
    Secretary Esper. All I can tell you is that I am not aware 
of any plans right now.
    Mr. Khanna. The second question I have is regarding the 
bombshell Washington Post report on the Afghan Papers. I 
imagine you read that. The bottom line is that top military 
officials and civilian officials have known that the Afghan war 
has been unwinnable and have been misleading the American 
public for 20 years. Your predecessor, Secretary Rumsfeld, is 
quoted there as saying I have no visibility into who the bad 
guys are.
    Are you embarrassed by Secretary Rumsfeld's comments and 
the other people quoted? And do you believe they owe the 
American public an explanation and an apology?
    Secretary Esper. Congressman, I haven't read all the 
stories frankly, and so before I comment on what Secretary 
Rumsfeld purportedly said or didn't say, I would want to read 
all of that and understand it and actually talk to him. But I 
do know this much, the stories spanned multiple 
administrations.
    Mr. Khanna. Certainly.
    Secretary Esper. Multiple uniformed and civilian officials. 
And I think it is good to look back. I think at this point 
where I am looking is forward and forward tells me is the path 
to success, the win, is a political agreement between the 
parties on the ground.
    Mr. Khanna. But don't you think we have to have some 
accountability so we don't make the mistake again?
    Would you support this committee holding hearings on the 
Afghan Papers and calling in front of Congress every official 
who has misled the American public about whether this war was 
winnable and all or not? Would 2,400 American soldiers dead, 
775,000 Americans deployed, don't you think people owe this 
country an explanation?
    Secretary Esper. Many of those dead are my friends and 
maybe some of my former soldiers, but look, it is the 
committee's responsibility to determine what it has hearings 
on. I don't think you want the executive branch making that 
call.
    Mr. Khanna. Mr. Chairman, I would request that this 
committee hold hearings on the Afghan Papers and call before 
Congress, with subpoena, every person who has misled this 
country. And just like in the Pentagon Papers, I think that 
should be one of our highest priorities in examining what has 
come out in that bombshell report.
    The Chairman. If I may, Mr. Khanna, we will pause your time 
for the moment. I think it is appropriate to have hearings. I 
will tell you right up front, just to set expectations 
correctly, I am not going to call every single witness who has 
anything to do with this. I do not believe that would be a 
productive use of the committee's time.
    I do think it is something we should take a look at and 
then get explanations from because I agree with the overall 
point. But I don't want to set unrealistic expectations about 
how the committee should approach it. So--answer your question.
    Mr. Khanna. I respect that. And, certainly, at least having 
some of the prominent people come and explain to the American 
public.
    My final question concerns Yemen, and I appreciate that the 
administration has voluntarily suspended the refueling of the 
planes. But we have had a situation, of course, now our own 
bases in Representative Gaetz's district, we have Saudi 
nationals who are being trained and are attacking Americans. 
And the question, I guess, that the American public is asking 
is why in the world would we be providing the Saudi Air Force 
with any possible logistical help to conduct bombing in Yemen 
when 10 million civilians possibly face famine?
    Secretary Esper. So, Congressman, we are not providing the 
Saudis logistical help with regard to their activities in 
Yemen. We are providing Saudis and 152 other countries training 
in the United States. Why, because we have a distinct advantage 
over Russia and China who don't have allies and partners. And I 
think that it is important that we continue these programs so 
that we have a broad network. That's what ensures our 
security----
    Mr. Khanna. But could you commit that we won't help the 
Saudi Air Force to either logistically or in maintenance to do 
anything in terms of their bombing in Yemen?
    Secretary Esper. Well, you can define help pretty broadly, 
right? We probably train Saudi personnel to do maintenance here 
in the United States. I don't know, but.
    Mr. Khanna. Could we stop doing any maintenance of the 
Saudi aircrafts in Saudi Arabia and help--and not any of our 
men and women assist the Saudis in their mission into Yemen?
    Secretary Esper. Yeah, I would have to come back to you and 
let you know what we are or are not doing with regard to the 
Saudis and what the impact would be on not just the Saudis, 
because keep in mind those same Saudi aircraft might be the 
same Saudi aircraft we call upon to help us blunt an Iranian 
assault in order to--or help us respond to it, an Iranian 
attack. So you have got to be thoughtful in terms of how we 
think through what actions we take or don't take.
    The Chairman. And the gentleman's time has expired.
    Mr. Gallagher.
    Mr. Gallagher. Thank you, Mr. Chairman. I think the 
previous administration struggled to effectuate a pivot to the 
Pacific because its foreign policy got sucked into a black hole 
in Syria. I think, despite a dramatically different approach to 
Iran in this administration, we face a similar grand strategic 
challenge, which is to say if we do not identify a high-impact, 
light footprint approach in CENTCOM, it will suck up the 
majority of resources, time, and attention and INDOPACOM will 
not get the priorities and the resources that it needs. In 
other words, we won't implement the NDS.
    So with that in mind, I would like to ask a few questions 
about China, not Syria, but the two things are linked in my 
mind as I know they are in yours.
    Secretary Esper. Sure.
    Mr. Gallagher. The first is that on September 11th, 
Representative Gallego and I joined Senator Cotton and Schumer 
in sending you, Mr. Secretary, a letter about what is called 
section 1237 of the fiscal year 1999 NDAA. It requires a 
regularly updated list of Chinese Communist Party--Chinese 
military-affiliated companies operating in the United States. 
We are still waiting on a response. It is 20 years late. We 
would really appreciate you delivering a response to this 
letter as soon as possible.
    Secretary Esper. Sure. I am sorry, but I am not tracking 
that but we will get on it. It is a good question. I think it 
is one of the things that concern me as somebody who has 
studied China now for a quarter of a century. We need to be 
very careful about all their activities in the United States 
and you have touched on one of them.
    Mr. Gallagher. I think given your background on the China 
Commission, you are very well situated to talk about these 
issues and, indeed, did talk very eloquently at the Reagan 
Defense Forum. I salute you for that.
    Almost one year ago, on February 2nd, Secretary Pompeo 
announced that we would be exiting the INF [Intermediate-Range 
Nuclear Forces] Treaty following NATO's unanimous determination 
of Russia's material breach of its obligations under the 
agreement. We formally withdrew on August 2nd. Since then, I 
believe there has been only one INF-range demonstration test 
with another coming up shortly.
    Secretary Esper. Right.
    Mr. Gallagher. Both of which stem from great work being 
done by SCO [Strategic Capabilities Office]. What are you 
doing, Mr. Secretary, to ensure that the two INF-range 
capabilities under development by SCO are being incorporated by 
the services into their fiscal year 2021 budget?
    Secretary Esper. Yes, sir. We are supporting those 
activities with money and technology and all the right people. 
Having that capability is essential and not just to counter 
what the Russians have already deployed in Europe, but also 
maybe more importantly vis-a-vis China. China has thousands of 
intermediate-range missiles along their periphery, along their 
eastern coast, if you will. And our ability to either blunt or 
respond to that will rely on intermediate-range missiles of our 
own. And other ranges, too, but I think we need to move out on 
that as well as with hypersonics and other means. And if the 
commanders need it, we will deploy it.
    Mr. Gallagher. And just to follow up on that, there was a 
fiscal year 2020 NDAA prohibition on INF-range procurement and 
deployment that I think could be mitigated because the 
Department's current schedule for INF-range capabilities. But 
if there was--in other words, you are not going to actually 
deploy those missiles in the next year or so. But if a similar 
provision were adopted for fiscal year 2021, what would be the 
impact on the Department's ability to actually execute the NDS?
    Secretary Esper. Well, I think you made the technical 
point, it would depend on our current development and 
deployment timelines. And again, I am assuming the commanders 
would need the weapons. And if they do, I want to provide those 
but it would take a tool out of our hands. Look, I don't see 
any possibility that we are going backward. The NATO allies are 
unanimous in terms of us getting out of INF and at this point 
our means to either address it with our own system and also to 
be able to defend against Russian systems.
    Mr. Gallagher. And then back to where I started. You know, 
CENTCOM's needs are obvious and apparent every day, sort of 
open up a newspaper. But also, in EUCOM we have established a 
European Deterrence Initiative [EDI] that has directed about 
$17 billion in funding. We don't have a similar--we have an 
authorized account for INDOPACOM, but we haven't actually 
funded it in the way we have done for EDI. Given the NDS 
priority on INDOPACOM and China, would a similar dedicated 
funding mechanism for INDOPACOM be a useful step going forward?
    Secretary Esper. Yes, sir. Maybe. It depends on where you 
take the money away from. You know, part of our efforts in both 
Europe and INDOPACOM is to look at how we change our footprint 
on the ground, so it gets to your point in that sense, in that 
principal point, yes. But we are also trying to, with regard to 
the allies and partners that can afford to, is help them help 
us----
    Mr. Gallagher. Yeah.
    Secretary Esper [continuing]. As we expand that footprint.
    Mr. Gallagher. Well, in a resource-constrained environment 
we will have to make choices.
    Secretary Esper. Yes, sir.
    Mr. Gallagher. And if I believe the logic of the NDS, as I 
do, INDOPACOM should be the priority. We will have to assume 
risk in other theaters.
    Secretary Esper. Yes, sir. If I had to pour concrete in 
some locations, if you will, build bases, I would rather 
prioritize, should be prioritizing INDOPACOM over other 
locations.
    Mr. Gallagher. One final question, and I know this is about 
Syria, but I don't often get the opportunity to talk directly 
to both of you. It is my understanding that current DOD policy 
prohibits the U.S. from exercising with the Taiwan Navy. Not as 
a result of any decisions we made in the 1970s or 1980s, but 
this has just been the policy for the last decade. Is it still 
the policy of the Department of Defense to prohibit bilateral 
naval exercises between the United States Navy and the Republic 
of China Navy?
    The Chairman. And beyond a yes or no, that is going to have 
to be for the record unless you can get it done with a yes or a 
no.
    Mr. Gallagher. Yes or no will be fine.
    Secretary Esper. I will have to get back to you.
    [The information referred to was not available at the time 
of printing.]
    The Chairman. Okay.
    Mr. Keating.
    Mr. Keating. Thank you, Mr. Chairman. I would like to thank 
Dr. Esper and thank General Milley for being here and for your 
extraordinary service. General Milley, your service is not only 
extraordinary, but lengthy. If I am not correct just looking 
back briefly on your bio, it goes back to maybe being in 
Princeton in the ROTC [Reserve Officers' Training Corps]; is 
that correct? And right around 1980, and then----
    General Milley. That is correct, Congressman, about almost 
40 years now.
    Mr. Keating. Yeah. Thank you. It is extraordinary in 
length. And I have a question for you, quickly, in that regard. 
During that almost four decades, or four decades of service and 
several Presidents, having served our country during that 
period of time could you share with us other instances where 
Presidents have pardoned war criminals in your experience since 
you have been in the military during that time?
    General Milley. Presidents have pardoned individuals many, 
many times. As you know, for example, President Nixon, a very 
famous case, pardoned Lieutenant Calley who murdered 130-some-
odd women----
    Mr. Keating. Yeah, during your time though, during your 
four decades.
    General Milley. Yeah, in my 40 years----
    Mr. Keating. Long time.
    General Milley [continuing]. Someone who was alleged to 
have committed war crimes----
    Mr. Keating. No, but someone that was----
    General Milley [continuing]. Or was convicted of war 
crimes----
    Mr. Keating. Yeah. Can you share with us?
    General Milley [continuing]. I do not know of one that 
comes to the top of my head.
    Mr. Keating. I can't think of one either, General.
    General Milley. But it has been done, historically.
    Mr. Keating. I know, but that 40 years and several 
Presidents, a long time.
    General Milley. Correct.
    Mr. Keating. So thank you for that.
    In your joint statement, both of you said you are focused 
on internationalizing the response to Iran's provocative 
activities by encouraging increased burden sharing and 
cooperation with allies and partners. It is a very important 
issue.
    And I also serve on the Foreign Affairs Committee, and very 
recently we had a Special Representative for Syria, Mr. 
Jeffrey, testifying. During that testimony, he did say and I 
agree with him a hundred percent that it was a mistake, when he 
was referencing the pullout of Syria without informing our 
allies. And to me that is a critical point, because we have 
something that probably the country that is our greatest 
threat, China, doesn't. We have something they don't have. We 
have something Russia doesn't have. We have this extraordinary 
coalition. I think it is one of the biggest difference makers 
that we have. And Special Representative Jeffrey, myself, a lot 
of other people, we are concerned. Those allies weren't even 
informed about what our actions would be even though they had 
troops on the ground there. And I am concerned about----
    General Milley. Yeah.
    Mr. Keating [continuing]. Not having that kind of 
notification. What can we do, going forward, to really make 
sure we have greater communication? I know that wasn't a 
decision that you made or the military made. It was the 
Commander in Chief----
    General Milley. Well, but if I may, I know that I 
personally called our allies and I believe, I won't speak for 
the Secretary, I believe he did as well, and I believe some 
people in the Department of State, perhaps Secretary Pompeo. I 
don't know about the rest of them. But I know I personally 
called our allies that were involved in Syria as soon as 
decisions were made.
    Mr. Keating. How much time was that?
    General Milley. It was very quick.
    Mr. Keating. Like what?
    General Milley. It was quick.
    Mr. Keating. Like what is quick?
    General Milley. Fast.
    Mr. Keating. What is fast?
    Secretary Esper. My----
    General Milley. I would have to go back and check the phone 
records. It was very, very quick.
    Mr. Keating. Days?
    General Milley. No, much faster than that.
    Mr. Keating. A day?
    General Milley. Yeah, it was inside of that.
    Mr. Keating. Inside of a day.
    General Milley. Absolutely.
    Mr. Keating. That is not what I call having--not that it is 
your fault--great cooperation and communication.
    Secretary Esper. I wanted--I just know----
    Mr. Keating. I think it so important going forward to have 
this.
    Now you are also referencing in your joint statement, you 
know, some of the other countries that are dealing with 
maritime and navigation issues. And I am looking at the list 
and there is U.K. [United Kingdom] and Australia, Albania, 
Saudi Arabia, UAE [United Arab Emirates], Bahrain. There is 
certain countries that are usual allies in many of these 
activities with us. Are there instances or can you share this 
with us where we have reached out or communicated to other 
allies and they haven't done what they quite often do and join 
us in these? I am just concerned.
    Secretary Esper. I can speak to that, Congressman. On both 
the International Maritime Security Construct and the 
Integrated Air and Missile Defense effort, I personally made 
calls to many allies in both Asia and Europe and asked for 
assets and was told either not possible or we will think about 
it, and you can see how many are there right now.
    Mr. Keating. I can see how many who aren't there too, who 
usually are there.
    Secretary Esper. That is exactly----
    Mr. Keating. That is a concern I have. My time is running 
out.
    Secretary Esper. But that is not--I will tell----
    Mr. Keating. I want to thank you. I just want to highlight 
this.
    General Milley. Your point of allies and partners is 
critical. We, the United States of America, depend upon for 
access basing and other things in military operations, allies, 
and we want to keep allies close. War is very hard----
    The Chairman. And we will have to leave it there where we 
are getting late, sorry.
    General Milley [continuing]. And we are done, so.
    Mr. Keating. Countries that have given blood too. Thank 
you.
    The Chairman. Mr. Gaetz.
    Mr. Gaetz. Thank you, Mr. Chairman. And I want to make sure 
that your call and Mr. Khanna's call for hearings on the Afghan 
Papers is a bipartisan one. I believe that those are issues 
that we ought to look into and I trust given your thoroughness 
that we will address that. We have been trading the same 
villages back and forth in Afghanistan for 20 years and I think 
the American people deserve answers.
    Mr. Chairman, I also want to thank you and the ranking 
member for your work on the NDAA and I intend to vote for it, 
but I am deeply disappointed that it doesn't include the 
amendment that Mr. Khanna and I worked on to constrain any 
Authorization for Use of Military Force in a regime change war 
with Iran.
    The Chairman. And just for the record, I share your 
disappointment. But we do have to work with the Senate and the 
President, so----
    Mr. Gaetz. I know that you worked hard on it.
    The Chairman [continuing]. And they opposed it.
    Mr. Gaetz. But it just is crazy to me in Washington, Mr. 
Chairman, that something that passes the House with a very 
robust majority, every Democrat, dozens of Republicans, it is 
up in the Senate, more people vote for it than against it, but 
I guess given the ways of Washington it can still not be in the 
bill. And it just seems a little swampy to me.
    The Chairman. If the gentleman would yield for a second, I 
think you have a much better relationship with the person who 
is responsible for that than I do, so I would urge you to work 
on that relationship. The President does have to sign the bill.
    Mr. Gaetz. I work to be a positive influence on everyone I 
have a chance to speak with, Mr. Chairman. And I also would 
suggest that a practical, restrained, and realistic view of 
foreign policy is entirely consistent with the Trump doctrine.
    And in that light, Mr. Secretary, it may be a minority view 
in the Congress, it may be a minority view on this committee, 
but I fully support the administration's decisions in the Syria 
and Turkey theater. It is my belief that we ended up in this 
mess in Syria as a consequence of the prior administration 
being all over the place on regime change wars in Syria that 
created second- and third-order effects that the Trump 
administration is now having to deal with.
    And as I see things, in a very challenging and complicated 
environment where there has been a great deal of war for a 
great deal of time, you have done all you can to balance 
regional interests, reduce U.S. risk and the U.S. footprint, 
and then secure the resources that will function as the 
leverage for the Kurds to have the greatest opportunity to have 
a say in their own future.
    And this notion repeatedly reflected in this committee on 
both sides of the aisle that because we are an ally with a 
group of people in one instance, because our interests align in 
that case, that that somehow morally binds us to every conflict 
they have past, present, or future, is crazy to me. And if we 
accept that doctrine it will not enhance the utility of our 
future alliances, it will diminish them because we will not be 
able to engage in those alliances given the complicated world 
in which we live today.
    I do want to go back to Pensacola for a moment because it 
is very essential to the thinking of many of my constituents. I 
understand that with the Saudi Government we have a status of 
forces agreement that set this program up. That status of 
forces agreement has within it, you know, various 
accommodations for access. But to me, when the uniformed 
military of another country, you know, attacks and kills my 
constituents wearing the uniform of our country, maybe we don't 
have to be as faithful to a contract regarding access, but we 
should be more concerned about ensuring that we contain the 
terrorism and hold those responsible.
    So perhaps you can inform me on what role the status of 
forces agreement is playing in the ongoing diplomatic stand-off 
or negotiation that we are currently having with the kingdom 
regarding those people currently in custody.
    Secretary Esper. Sure, Congressman. It is a fair question. 
Sorry. It is a good question. Honestly, I am not up to speed in 
terms of what the SOFA [status of forces agreement] says with 
regard to this case. I would have to get back to you on that.
    [The information referred to was not available at the time 
of printing.]
    Mr. Gaetz. Well, it is my sincere hope that that is not 
limiting the work of the FBI or creating unique challenges by 
having the kingdom make demands to have their embassy personnel 
interact with people that we are currently holding.
    And this is a question I get a lot from my constituents, 
maybe you can elaborate on it. You know, when people who are 
the active duty military of another country attack our military 
in our country, why is that viewed as like a law enforcement 
event rather than an event like more akin to an act of war 
where we would hold these people as prisoners of war, people in 
conflict, rather than like, you know, giving them the full 
complement of the rights articulated in the status of forces 
agreement?
    Secretary Esper. Well, I will just say up front I think we 
need to let the investigation play itself out. But in this case 
I would say, obviously, Saudi Arabia is a partner. We are not 
in war with them. We don't actually have any hostility with 
them whatsoever, so in this case, I look upon it as the act of 
an individual at this point. Now we need to find out whether 
there was more behind it or not, but I certainly--it was not a 
state-sponsored action as best I can tell at this point.
    Mr. Gaetz. Yeah, I am not saying it is. But I don't think 
that the statement that this is the work of an individual is 
going to age well, Mr. Secretary.
    Secretary Esper. No, I said at this time that is all I am 
willing to say is we know it is one. We need to let the 
investigation tell us what else is out there.
    Mr. Gaetz. At this time, I----
    The Chairman. And that is another argument that we will 
have to leave at that point. But I think that is something 
worth investigating.
    Mr. Crow.
    Mr. Crow. Thank you, Mr. Chairman. I appreciate both of 
your testimony today and your accessibility. I found both of 
you under your tenure to be very accessible to the committee 
and I do appreciate that.
    Notwithstanding some of my colleagues on this committee's 
attempts here today to exercise some revisionist history with 
regard to blaming issues on the prior administration, you know, 
the bottom line is that this administration really has no 
overarching policy in the Middle East and with respect to 
Syria. It appears just to be a series of fairly ad hoc 
decisions stumbling from one decision to the next.
    And there is no greater illustration of the fact that the 
first week of October I led a congressional delegation to the 
region where we met with and discussed security issues with 
numerous intelligence and military and diplomatic officials, 
none of whom by the way had any idea that we were about to 
exercise a precipitous withdrawal from northern Syria. And that 
brings me to my first question, General Milley. Several of 
those officials expressed a grave concern about the security of 
those ISIS prisoners in the prisons in northern Syria and I 
just wanted to clarify what I heard you say today, that you 
don't have any concern, currently, even though the situation 
seems to be less secure now than it was in early October given 
our much lower footprint in that area. But you don't have any 
concern about the security of those prisoners; is that 
accurate?
    General Milley. South of the 30-kilometer buffer zone the 
reports I have indicate that the SDF is still securing the 24 
prisons for which they are responsible for. Inside the 30-
kilometer buffer zone we don't have that level of visibility, 
so I can't say one way or the other. I think there were seven, 
if I am not mistaken, from memory, seven facilities inside that 
30----
    Mr. Crow. And, General, did we have that visibility before 
our withdrawal? Did we have that visibility on those prisons 
that you just indicated before our withdrawal and now we do 
not?
    General Milley. Sure, of course. I mean they were--were co-
located in some respects and the SDF had those detention 
facilities. Since the Government of Turkey went into that 
incursion zone it is their personal, or it is their legal, 
internationally legal responsibility.
    Mr. Crow. So from the first week of October, we are in a 
less--we are in a worse position with respect to oversight of 
those prisons than we were or are currently now than we were 2 
months ago?
    General Milley. I would say we have less visibility.
    Mr. Crow. Okay.
    General Milley. Because the Turkish Government has 
responsibility and we don't have the visibility on those 
detention facilities.
    Mr. Crow. Next question is, there have been several public 
media reports about Iranian drones called suicide drones 
conducting overflight operations of our forward operating bases 
in Syria, Iraq, and potentially Jordan. Standing here today, if 
there is an Iranian drone attack on one of our forward 
operating bases in those three countries, do those forward 
operating bases and do our soldiers have the necessary 
materiel, equipment, and intelligence to defend against those 
attacks?
    General Milley. I would say, first of all, it is a very 
serious threat. We are aware of it and in some cases we have 
some capabilities to mitigate the threat. But to say that we 
can eliminate the threat, that would be a false statement. So, 
no, we don't have everything we would absolutely want that 
technology can provide.
    Secretary Esper. I would add that our ability to respond is 
not unique to Iranian drones, it is a challenge we face writ 
large. And that is why I recently reassigned the responsibility 
for counter-UAS [unmanned aerial systems] systems to the Army 
as the executive agent. We need to get ahead of this because 
the offensive technology is changing more quickly than our 
defensive means to deal with it.
    Mr. Crow. Okay. Thank you, Secretary Esper.
    Last question, General Milley, you are a Special Forces 
officer and have worked with local forces a lot throughout your 
career. There is bipartisan concern on the Hill about our lack 
of kind of standing by our Kurdish and Syrian allies who fought 
with us in northern Syria. And as a result of that several of 
us have led a bipartisan bill called the Syrian Partner 
Protection Act that would create an SIV [Special Immigrant 
Visa] program for those fighters and their families and allow 
them to come to the U.S. if they are in danger.
    Could you speak very briefly as to the impact, the positive 
impact that SIV programs have, you know, not only in Syria but 
in Afghanistan and Iraq on our ability to demonstrate that we 
will stand by our partners and continue to recruit partners 
like that throughout the world?
    General Milley. Well, I think for the United States as we 
go forward, regardless of where it is in the world, maintaining 
allies and partners in both nation-states but also indigenous 
partners like the SDF are important to fulfill our national 
security objectives and anything that we can do to assure them 
and maintain good faith with them is a positive.
    Mr. Crow. Okay, thank you. I yield back, Mr. Chairman.
    The Chairman. I thank you, Mr. Crow.
    Mr. Waltz.
    Mr. Waltz. And I am proud to join my colleague, 
Representative Crow, in that expansion of the SIV program which 
I think is critical to our local allies and to our ability to 
move forward.
    Mr. Chairman, I have a unanimous consent request to submit 
to the record a letter from the commander in chief of the 
Syrian Democratic Forces to this committee.
    The Chairman. Without objection, so ordered.
    [The letter referred to was not available at the time of 
printing.]
    Mr. Waltz. Thank you, Mr. Chairman. I would like to return 
very quickly to this issue of pardons and war crimes, and one 
of the--the third case in First Lieutenant Lorance, I would 
just kind of conclude that that line of thinking and the 
previous conversation that Lieutenant Lorance did serve 6 
years. I would submit to my colleagues, we need to be very 
careful in equating mistakes, perhaps bad judgment calls, calls 
that may even get you relieved of command, with a war crime.
    And I too have received many texts and a lot of outreach 
since these pardons and most of them said ``that could have 
been me.'' And these split-second decisions in the heat of 
combat, again, making a mistake does not necessarily equal a 
war crime and I do think we have to be careful with the signals 
that we send, and in this case a very chilling signal that if 
you make a bad call that you could go to jail for 20 years. And 
I would just ask both of you to consider that as we deal with 
these going forward.
    General Milley, I am glad that you mentioned that we are 
and clarified that we are fighting ISIS from Africa to 
Afghanistan. This is, in my view, a global insurgency by 
extremists against American leadership of a world order based 
on Western values and that includes Iran in that support of 
extremism. Would you both agree with that characterization?
    Secretary Esper. Yes.
    General Milley. Yes.
    Mr. Waltz. And that we are dealing with a multigenerational 
war against extremism, against an ideology much like the war 
that we fought against the ideology of Communism and that we 
need a whole-of-government strategy to undermine the ideology, 
everything from girls' education to women's empowerment, 
economic opportunities, in addition to the military aspects of 
that. Would you agree that we need that and, frankly, that it 
has been lacking in the last 20 years of that whole-of-
government approach?
    General Milley. Absolutely, I do. You have to get at the 
root causes and delegitimize the ideology, absolutely.
    Secretary Esper. I think we need it. I am not sure to what 
degree. I would have to look back and understand whether it has 
been lacking or not or where and when it has been lacking. But 
the third piece of that is you have to have a culture of people 
willing to accept those ideas as well and you have to have--it 
has to be organic that some part of that population has to be 
receptive to those ideas, so that is critical.
    Mr. Waltz. So what we are talking, I mean we are talking 
about individual battles here from Syria to Iraq to Afghanistan 
in that I think that broader conflict where we do need that 
whole-of-government approach. Do you believe, General Milley, 
in your military opinion, do you believe that ISIS and al-Qaida 
can and will resurge, will regain capability and has the intent 
to attack the homeland if we allow it?
    General Milley. The second one first, do they have the 
intent to attack the homeland? Yes, they absolutely do. We know 
that with certainty. But do I believe they will resurge if we 
withdraw all of our capabilities and support to the indigenous 
government and we don't continue to operate by, with, and 
through them, then I believe that the conditions will be set 
for resurgence.
    Mr. Waltz. So you do not believe then, just approaching it 
another way, that the Syrian Democratic Forces whether that is 
in Syria, the Afghan National Security Forces in Afghanistan, 
the Iraqi Security Forces, currently have the independent 
capability without U.S. support to prevent that resurgence?
    General Milley. I don't believe they have the independent 
capability right this minute. That is true.
    Mr. Waltz. So in the near term, a full withdrawal would 
endanger the homeland?
    General Milley. It is my belief that is correct.
    Mr. Waltz. Okay, Syria in particular, I just want to focus 
on that a moment. It just seems to me that we have discordant 
objectives here. On the one hand, our objective is ensuring the 
defeat of ISIS and the enduring defeat of ISIS, yet would you 
agree that the Assad regime backed by Iran, backed by Russia, 
with the war crimes that they have committed in bombing 
hospitals and refugee camps are essentially driving Sunni 
recruits to ISIS?
    I mean on the one hand, by allowing Assad to continue its 
streak of murderous attacks across Syria, we are furthering 
ISIS. So my question is, what is our policy? And you can submit 
that for the record. What is our policy toward Russia, the 
Assad regime, and Iran--or, actually, I still have 20 seconds.
    Secretary Esper. I will just say broad-based--this was 
asked a couple times--our overarching goal with regard to Syria 
is to come up with a U.N.-sponsored political settlement 
between the parties that ends the civil war and hits those 
three topics I have mentioned before, objectives: not a safe 
haven for terrorists; not dominated by any power, in this case 
Iran, hostile to the United States; and contributes to a global 
security, strategic energy market.
    The Chairman. Thank you.
    Mr. Waltz. Thank you. I yield back.
    The Chairman. You can submit the rest for the record.
    [The information referred to was not available at the time 
of printing.]
    Ms. Slotkin.
    Ms. Slotkin. Hi, gentlemen. Thanks for being here. You 
know, I want to go back to this decision, the President's 
decision to allow the Turks to go into northern Syria. And I 
would offer, Mr. Secretary, that the only reason you are 
sitting here today is because General Mattis resigned almost 
exactly a year ago today on the basis of the President 
threatening this very decision, so I think it makes perfect 
sense that we are talking about it.
    Can I just ask, you know, I think this issue really 
resonated with voters back home in our districts. Not because 
they understand every in and out of where Syria is and who the 
Kurds are and all the players; they understood that the 
American handshake has to mean something and that when we shook 
hands with the Kurds we gave them the commitment at the three- 
and four-star level that we would work with them. And when they 
died with us on the battlefield that that meant something to us 
and we wouldn't create a situation where they are running for 
their lives and their families are an internally displaced 
people.
    So, let me ask you a question. Is our plan in Syria and in 
fighting terrorism from Africa to Afghanistan still working by, 
with, and through local partners?
    Secretary Esper. Yes, Congresswoman, it is. But let me go 
back to what----
    Ms. Slotkin. No, I am sorry. No.
    Secretary Esper. But this is too important. You made a----
    Ms. Slotkin. Mr. Secretary, no. Mr. Secretary----
    Secretary Esper. But you made a statement that is 
inaccurate.
    Ms. Slotkin [continuing]. You have said that that--you 
working by, with, and through----
    Secretary Esper. It is, but you made an inaccurate 
statement and I want to clear----
    Ms. Slotkin [continuing]. And what I want to understand--
what I want to understand is in the future of our terrorist 
fights in West Africa, in all these places, the demonstration 
of going to the Kurds and telling them that we are leaving 
them, does that make it easier or harder to find partners to 
work by, with, and through for the next terrorist threat? Just 
harder--be honest.
    Secretary Esper. I am being honest.
    Ms. Slotkin. Be straight. And Secretary Mattis was as 
straight as they come. Be honest.
    Secretary Esper. The----
    The Chairman. Ms. Slotkin, I am sorry. If you have a 
statement to make----
    Ms. Slotkin. I am sorry.
    The Chairman [continuing]. You may make a statement.
    And that is----
    Ms. Slotkin. Does it make it easier or harder?
    The Chairman. I will give you more time in a second. Yield 
for just a moment. If you have a statement to make, you make 
the statement. I don't want witnesses badgered up here. You 
asked him a question. You have to give him a chance to answer. 
If you want to make a statement, perfectly within your right, 
but don't badger him when he is trying to answer the question.
    Go ahead.
    Secretary Esper. Thank you, Mr. Chairman. The handshake 
with the Kurds, with the SDF in particular, was a handshake 
that we would ensure the--we would defeat ISIS. It was not a 
handshake that said yes, we would also help you establish an 
autonomous Kurdish state. It was also not a handshake that said 
yes, we would fight Turkey for you. That is the difference 
there I am trying to make, the point we are trying to make. 
Whenever we make these handshakes with by, with, and through, 
which is our strategy, I think we need to be clearer going 
forward as to what the extent of that relationship actually is.
    Ms. Slotkin. Will that be harder or easier if you are in 
Mali or Burkina Faso or other places? Do you think that these 
partner groups would feel like they could trust us?
    Secretary Esper. If we are clear and explicit with what the 
relationship is up front, yes.
    Ms. Slotkin. You are the Secretary of Defense and I know 
folks have talked about the authorization of military force and 
I agree with most of my colleagues here that it desperately 
needs revision and that is actually Congress' responsibility, 
which they have shirked. Can I ask right now, do you, as 
Secretary of Defense, believe that you have authorization based 
on any AUMF on the books, to go to medium- or long-term war 
with Iran?
    Secretary Esper. We always have the right of self-defense, 
but to attack Iran, no. Not under--that is not as a state-on-
state attack, no.
    Ms. Slotkin. Okay, thank you. I yield back.
    The Chairman. Thank you.
    I know we are a little over time, if you will indulge me 
for just a minute here.
    Ms. Sherrill.
    Ms. Sherrill. Thank you, Secretary Esper and General 
Milley, for being here today. I myself served in Pensacola, so 
I do look forward to hearing about your investigations into the 
foreign nationals on that base.
    General Milley, you stated that our objective is a secure 
Middle East. Given that we have defeated the physical caliphate 
but knowing how important it is to protect those gains because 
as Secretary Esper stated, we haven't defeated ISIS, and given 
our relationship with our Kurdish allies who have certainly 
done a great deal of fighting for our shared objectives, and 
now given that we are still conducting combined operations 
presumably with the, roughly, I think you said 500 troops that 
we have remaining to fight in the region, I guess I fail to see 
how the President's tweet to remove troops without coordination 
with the Pentagon or our own Kurdish allies aids our objective 
of a secure Middle East. So have you found that tweet, did you 
find that tweet to be helpful?
    General Milley. I am not sure which tweet we are talking 
about. To say that the President made a decision without 
coordination with the Secretary and I is not true. He did.
    Ms. Sherrill. So he tweeted out that we were going to 
remove troops from Syria and the Pentagon didn't know, but you 
were both aware that he was going to make that tweet?
    General Milley. I wasn't aware of a specific tweet, but the 
sequencing, I am not exactly clear which tweet you are talking 
about.
    Ms. Sherrill. I am talking about the most recent tweet when 
he said he was going to remove the troops from Syria, not the 
months ago when he said we were going to do that under--when 
Secretary Mattis resigned. I am talking about the one after 
that.
    General Milley. You are talking about the one in October 
when we pulled troops out?
    Ms. Sherrill. When we pulled troops out.
    General Milley. Yeah. I think that tweet, I believe that 
that tweet happened after we talked, but I am not sure. I would 
have to go back and check. I guess my point is this. There was 
coordination and there was discussion between senior advisors 
and the President prior to him making a decision.
    Ms. Sherrill. So these senior advisors knew, but none of 
our allies across the world. I mean Mr. Crow, you know, was 
just talking about his----
    General Milley. Yeah.
    Ms. Sherrill [continuing]. Discussion with allies----
    General Milley. Right. Right.
    Ms. Sherrill [continuing]. Who right before that tweet had 
no idea that was coming. I will tell you, many people in the 
Pentagon had no idea that was coming. But you had all discussed 
it internally and decided to do it without working with the 
Pentagon or our allies.
    General Milley. I can assure you there were discussions and 
deliberations done by members of the National Security Council 
with the President of the United States.
    Ms. Sherrill. Did you recommend that you pull out of Syria?
    General Milley. I personally recommended that we pulled out 
28 Special Forces soldiers in the face of 15,000 Turks that 
were going to invade----
    The Chairman. I'm sorry, would the gentleman yield? Will 
the gentleman yield for just one quick second?
    General Milley. Yes.
    The Chairman. Because this is a question that's enormously 
important, and that's great.
    General Milley. Yes.
    The Chairman. In December--now, you were in different jobs 
at the time, but you were both in jobs----
    General Milley. December, a year ago, you mean?
    The Chairman. Last year.
    General Milley. I thought you were talking about October, 
this past October.
    The Chairman. I'm going to a different place. It is a 
simple yes or no question. Just bear with me.
    General Milley. Okay. Yes.
    The Chairman. In December, when you were the Secretary of 
the Army, and you were the Army Chief of Staff, to your 
knowledge, did anyone in the Pentagon, before the President 
sent out his tweet saying that we were going to pull completely 
out of Syria and Afghanistan, did anyone in the Pentagon know 
that that announcement was coming when the President tweeted 
it, to your knowledge?
    General Milley. I don't know. I don't think I----
    Secretary Esper. Chairman, I can't speak to that because 
I----
    The Chairman. All I'm asking--you can speak to that. To 
your knowledge, as the Secretary of the Army and the Chair of 
the--to your knowledge, did anyone in the Pentagon know that 
that announcement was coming?
    Secretary Esper. I don't know, and I am not trying to dodge 
because it is not a yes or no. As a service----
    The Chairman. It is to your knowledge. Is it yes or no?
    Secretary Esper. But as a--I can't tell you. As a service 
secretary I don't have----
    The Chairman. You don't know what you know?
    Secretary Esper. As a service secretary, no. Not--the 
service secretaries do not have an operational role.
    The Chairman. I just asked a very narrow question.
    General Milley. I don't know.
    The Chairman. You talk to people in the Pentagon. You are 
telling me that you are the Secretary of the Army, and you are 
the chairman--you're the Army Chief of Staff, you are hanging 
out in the Pentagon--oh, we are pulling out of Syria?
    General Milley. A year ago, I don't know if anyone was 
told. October----
    The Chairman. That is all I am asking.
    General Milley [continuing]. I guarantee there were 
deliberations.
    The Chairman. I know about that. But the earlier decision 
is the really important one here, in my opinion.
    I am sorry to interrupt, Ms. Sherrill, please go ahead.
    Ms. Sherrill. Well, I am also confused, because now--so it 
is my understanding that you were deliberating with some number 
of people and you suggested then the President pull out 28 
troops?
    General Milley. Let me review the bidding here. There were 
a variety of intelligence reports going back as far as early 
August of a considerable build-up of Turkish forces and 
capabilities with the intent to invade northern Syria and 
establish a buffer zone. President Erdogan went to the United 
Nations and held up a map and did declaratory policy and said 
he was going to do that.
    When I became the Chairman of the Joint Chiefs of Staff, 
one of the very first calls I made was to the CHOD [Chief of 
Defense] of Turkey to say, what are you doing? And he said we 
are going to do this and we cannot guarantee the safety of the 
American forces that are in the way. Those reports went to the 
Secretary of Defense, the President----
    Ms. Sherrill. So, sir.
    General Milley. Hang on.
    Ms. Sherrill. So our NATO allies said we are going to do 
this----
    General Milley. That is correct. That is exactly what 
they----
    Ms. Sherrill [continuing]. And we are going to run right 
through American troops.
    General Milley. That is right. That is exactly right.
    Ms. Sherrill. And we did not talk to our allies and we did 
not go through----
    General Milley. We did talk to our allies.
    Ms. Sherrill. Well, they seemed remarkably unaware that we 
were going to do this.
    General Milley. I don't know which allies you are referring 
to.
    Ms. Sherrill. I am talking about Jordan. I am talking about 
allies throughout the region. I am talking about Israel. I am 
talking about our allies in the region who seemed to not----
    General Milley. It is not correct----
    Ms. Sherrill [continuing]. Understand that we were going to 
pull troops out. Which allies were you talking about, I guess, 
is my question.
    General Milley. I am talking about Britain, France, and 
Israel. And they were personally called about the discussions 
and the situation and they were all fully aware of the 
possibilities and the discussions and the situation, the key 
people. I am not going to speak for every member of the 
government. And then----
    Ms. Sherrill. Well, I will speak for Netanyahu and----
    General Milley. I am not going to speak for Netanyahu. I 
know who I called.
    Ms. Sherrill [continuing]. Who seem to be----
    General Milley. So, but my point being is there were 
deliberations and there were 15,000 Turkish soldiers and we had 
all the intelligence indicators to clearly indicate the orders 
were written and sent and rehearsals were complete and they 
were going to attack. There were 28 United States Special 
Forces Green Berets and I am not going to allow 28 American 
soldiers to be killed and slaughtered just to call someone's 
bluff.
    There has been a lot of criticism about----
    Ms. Sherrill. I don't understand what these 28 troops that 
you are referring to. We had a thousand troops, what, and you 
wanted to pull 28?
    General Milley. Along the access of advance----
    The Chairman. Sorry, the initial access of advance. I 
apologize. We----
    General Milley [continuing]. Of their invasion we had 28 
soldiers.
    The Chairman. I apologize. I apologize. And again, I 
really--if everyone--and I agree. Once the President made the 
announcement 6 months before in a tweet that we were pulling 
out of Syria--and this is absolutely what happened. When that 
tweet was made everyone went, oh my god, what did he do? And 
you all went, well, we have got to figure this out. And it is 
my opinion everything you just said, sir, is what Erdogan did 
after the President, unilaterally, without consulting the 
Pentagon, to my knowledge without even consulting the National 
Security Council, said we are pulling out of Syria.
    It is my opinion and someone can disavow me of this notion 
at some point, that was the moment when Erdogan said, okay, I 
can do this. And then, yes, over the course of the next 6 to 7 
to 8 months he planned it out, which then led to the series of 
events which you have told us and described, and I think it is 
accurate because the other thing is we had over 3,000 troops in 
Syria when the President made that announcement.
    By the time we got to all that you just described that 
number was way down and it was way down--I am sorry, I will 
just say this bluntly. It was way down not because it was in 
the national security interest of the United States for it to 
be way down, it was way down because the President was trying 
to fulfill a campaign promise, and he did not consult the 
Pentagon before he made that announcement and started us down 
this path.
    Now I am very sympathetic. Once we started down that path 
you guys had to figure out how to make it work, and you really 
worked hard at it. I know Secretary Dunford did as well. He 
desperately tried to find partners who could fill in for us 
leaving. He did. He was just unable to do it. But that is the 
discussion I want to have. And I am sorry, it is frustrating 
for me. We get--there were only 25 troops there. We couldn't 
possibly defend them. I agree. I completely agree, but that was 
started before then.
    I do have to give Mr. Thornberry a chance to respond to 
this point and then I do want to get to Ms. Escobar, if I 
could. I said I would. I apologize. I know you guys are pushing 
on time, but it is a really important point. And I am not, I am 
really not trying to make a political point. But if we don't 
understand that--I want someone to go over to the White House 
and say we would really prefer you not to do this again, okay, 
that we have a process; that tweets have far more power than 
people realize on our policy. Let's try to calm that down. That 
is what I am trying to accomplish.
    Mr. Thornberry.
    Mr. Thornberry. Mr. Chairman, it is a far more complicated 
story than that. It is true in December, now a year ago, the 
President issued his text. There were immediate conversations I 
know personally between members of the House and the Senate 
with the President and others at the White House related to 
that tweet. And as without going into all of the ins and outs 
over weeks, it is also true that there were other partners who 
did step up to assist in the work in Syria. And again, I have 
personal knowledge of a number of those conversations with 
partners.
    So the bottom line is the President made a tweet. There was 
a lot of work and conversation. We did not withdraw from Syria 
and we had partners working with us. I do not believe that it 
was inevitable that what happened in October was going to come. 
Now I understand your point that once he said that, it was 
going to happen one way or another. I can just say it is, I 
believe it is a more complicated story with a number of people 
who have been emphasizing to the White House and to partners 
that we all need to be there together because we had a lot at 
stake. And there was some success with that and obviously 
President Erdogan saw an opening.
    And just to emphasize, I think the decision made by the 
Secretary and the Chairman to safeguard American lives when 
they made it was absolutely the right decision. I have qualms 
with the original tweet, as you know. I don't think that was 
right and that is part of the reason I was involved in some of 
those conversations to ensure that we can continue to safeguard 
American interests in that region.
    The Chairman. Thank you very much.
    Ms. Escobar, I apologize. I thought that was important. If 
you could--I know we are over time here. Just give you a couple 
quick minutes. Go ahead.
    Ms. Escobar. Thank you, Mr. Chairman. And, gentlemen, thank 
you so much for being here and for your testimony. I am going 
to pick up where my colleague, Ms. Sherrill, left off and I 
just, I want to be clear in understanding this.
    So, Chairman, you gave the recommendation because you had 
gotten notice from Turkey that American troops, their safety 
and security could not be guaranteed by our NATO ally and that 
they were about to invade and if something happens to American 
troops, well, something happens to American troops. Am I 
understanding that correctly?
    General Milley. That is about right. That is correct.
    Ms. Escobar. Okay, so----
    Secretary Esper. I would add that I made the recommendation 
as well. It was my assessment in discussions I had with my 
counterpart leading up to, in the weeks leading up to the 
events of that date.
    Ms. Escobar. Was there an effort to negotiate with Turkey 
to ask them to be, to stand down, to not do it?
    Secretary Esper. Yes.
    General Milley. Yes.
    Secretary Esper. A very intense effort.
    Ms. Escobar. And how long did that effort go on before the 
decision, before the recommendation was made?
    Secretary Esper. Weeks. We had been working on this for 
actually months with the Turks to restrain them by going 
through a number of diplomatic actions, military actions on the 
ground trying to set up a safe zone. All these things we were 
trying to do diplomatically, militarily, et cetera, while the 
build-up was happening that the Chairman described earlier, to 
pull them back from crossing into northern Syria.
    Ms. Escobar. Was the President involved? Did he pick up the 
phone? Did he call our ally? Did he make the case himself for 
Turkey not going forward with its plan?
    General Milley. I don't know.
    Secretary Esper. Well, I can't--I don't know all the calls 
the President does or does not make, but even if I knew I 
wouldn't convey that to you because it is, you know, those 
conversations are private between me and the Commander in 
Chief.
    Ms. Escobar. I would be interested in a classified setting 
to learn that information. This is----
    Secretary Esper. I still wouldn't share it with you, 
Congresswoman.
    Ms. Escobar. Okay.
    Secretary Esper. It is just as I wouldn't share a 
conversation between me and you, publicly, or with anybody.
    Ms. Escobar. I think this is an important point to me. Not 
even as a Member of Congress, but as an American, to know that 
we have troops that have been working side by side with allies. 
And you are right. There was a handshake deal, not a specific 
commitment. However, there is something to be said for a 
handshake deal for a mutually beneficial relationship that has 
benefited American safety and security tremendously that has 
allowed us to push back on terrorism and on ISIS. And so you 
will have to forgive me, but this idea that--while you are 
correct that, you know, it wasn't in the fine print that we 
were going to really be a good, strong ally, that is 
distressing to me as an American.
    Secretary Esper. And I appreciate that. And, look, we have 
both been there. But not only was it not in the fine print, it 
wasn't in the bold print. Never did we put on the table, in 
fact, I have spoken to our commanders about this. Some of them 
were very clear that we are not here--we are not going to 
defend you against Turkey.
    Ms. Escobar. And, but--and, Mr. Secretary, I understand 
that. I think what is equally distressing to me is to hear that 
a NATO ally was about to run roughshod over American troops and 
I wonder if the President got involved. So that is a question 
obviously that you are saying not even in a classified setting 
you would be willing to answer. Do you all know how many----
    Secretary Esper. I don't know the answer to begin with. I 
said even if I did, I----
    Ms. Escobar. Okay. Well, that is distressing as well 
because if we are negotiating to protect American troops and to 
prevent an ally from creating what is now a deeply unsettling 
situation, I mean 200,000 civilians have been displaced. We 
have seen genocide occurring. I am now concerned and I would 
like your opinion. You know, part of what drives people into 
the arms of ISIS and what promotes terrorism is that 
instability, this feeling that you don't have a future. If 
there is anything that I have learned while serving on this 
committee is that that kind of hopelessness is a breeding 
ground.
    Secretary Esper. Right.
    Ms. Escobar. Is there a breeding ground right now in Syria 
for ISIS?
    Secretary Esper. I can't comment on that. I just don't 
know. But let me tell you this, what the Turks would say, and I 
am not defending the Turkish action, but they would say, look, 
this has gone on for them for decades, if not a couple hundred 
years of this conflict between Kurds and Turks.
    Ms. Escobar. But, Mr. Secretary, with all due respect, we 
had a situation that was far more under control before than it 
is today, would you agree?
    Secretary Esper. Yes and no, Congresswoman. If you will 
recall from the earliest days when this SDF was first set up 
under the Obama administration there was unhappiness, vocal, 
public concern by the Turks about the relationship. And they 
had made two previous incursions into Syria to address what 
they thought was a terrorist problem. But none of these----
    The Chairman. And we will--yeah, I don't want to--I know 
you guys have been very generous with your time, and I think 
that was a good point. I know you have to go. So I don't want 
to cut you off, but at the same time I also want to respect 
your time. And I thank you very much for being here. We are 
adjourned.
    [Whereupon, at 12:20 p.m., the committee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                           December 11, 2019

=======================================================================

      



      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           December 11, 2019

=======================================================================

      
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
  

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           December 11, 2019

=======================================================================

      

                     QUESTIONS SUBMITTED BY MR. KIM

    Mr. Kim. Addressing the root causes of state fragility in countries 
like Syria is not just smart for our national security, but is also 
cost effective--for every $1 we spend on conflict prevention, we save 
$16 in response costs. The Global Fragility Act, legislation that 
passed the House with broad bipartisan support, identifies addressing 
state fragility as a U.S. government priority and requires an 
interagency strategy to tackle this issue in conflict-affected areas 
such as Syria. Can you share how improved coordination between DOD, 
State, and USAID to address fragile and conflict-affected states would 
make a difference for U.S. policy in the Middle East and around the 
world?
    Secretary Esper. [No answer was available at the time of printing.]
    Mr. Kim. In your confirmation hearing earlier this year, you 
commented on the importance of ``leveraging other parts of the 
government'' such as the State Department and USAID to effectively 
pursue the Administration's National Security Strategy. This is 
especially true in Syria, where diplomacy will no doubt be critical to 
a long-term solution. How have you been working alongside Special 
Representative for Syria, James Jeffrey, to promote diplomacy in the 
region, and how important do you see our commitment to the diplomatic 
side of our engagement?
    Secretary Esper. [No answer was available at the time of printing.]
    Mr. Kim. Addressing the root causes of state fragility in countries 
like Syria is not just smart for our national security, but is also 
cost effective--for every $1 we spend on conflict prevention, we save 
$16 in response costs. The Global Fragility Act, legislation that 
passed the House with broad bipartisan support, identifies addressing 
state fragility as a U.S. government priority and requires an 
interagency strategy to tackle this issue in conflict-affected areas 
such as Syria. Can you share how improved coordination between DOD, 
State, and USAID to address fragile and conflict-affected states would 
make a difference for U.S. policy in the Middle East and around the 
world?
    General Milley. The Global Fragility Act is an important step to 
assist U.S. policy objectives in the Middle East and around the world. 
On December 20, the President, as part of the FY2020 spending package, 
signed the Global Fragility Act into law. The Act directs the 
development of an integrated ten-year strategy (Global Fragility 
Strategy), requires synchronization of implementation plans across the 
USG through the Secretary of State, and provides the appropriations 
necessary (over $1B to DOS over five years) for prevention and 
stabilization efforts in conflict-affected areas. These actions will 
help ensure DOD efforts support designated priority countries and 
facilitate interagency synchronization on country plans for prevention 
and stability.
    The Global Fragility Act directs the President, in coordination 
with the Secretary of State, the Administrator of the United States 
Agency for International Development (USAID), the Secretary of Defense, 
and the heads of other relevant Federal departments and agencies, to 
establish a comprehensive, integrated, ten-year strategy. This strategy 
will contribute to the stabilization of conflict-affected areas, 
address global fragility, and strengthen the capacity of the U.S. to be 
an effective leader of international efforts to prevent extremism and 
violent conflict. The Joint Staff will support the Department of 
Defense's participation in the development of this strategy, including 
the identification of priority regions and countries.
    Preventing conflict and reducing state fragility protects U.S. 
interests and investments by strengthening alliances and partnerships 
and reducing the need for later costly interventions and efforts. 
Addressing fragility, conflict, and violence in the Middle East or 
around the world is critical to help countries achieve self-reliance 
and reduce dependency on external aid. The Global Fragility Act, 
combined with the Department of Defense's new authority in the FY2020 
National Defense Authorization Act to support DOS and USAID 
stabilization operations, provides the tools necessary to help bring 
about this objective.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. HOULAHAN
    Ms. Houlahan. As the number of refugees rises in the wake of the 
recent Turkish incursion into Syria, what is the Department doing to 
engage in efforts to counter violent extremism? More specifically, what 
is the Department doing to engage women in CVE as more and more people 
are displaced?
    Secretary Esper. [No answer was available at the time of printing.]
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. WALTZ
    Mr. Waltz. Would you agree that the Assad regime, backed by Iran 
and backed by Russia, are essentially driving Sunni recruits to ISIS? 
What is our policy towards Russia, the Assad regime and Iran?
    Secretary Esper. [No answer was available at the time of printing.]
    Mr. Waltz. Would you agree that the Assad regime, backed by Iran 
and backed by Russia, are essentially driving Sunni recruits to ISIS? 
What is our policy towards Russia, the Assad regime and Iran?
    General Milley. Pro-regime operations at the outset of the Syrian 
civil war drove a number of Sunni recruits to join ISIS; however, we 
have not seen continued evidence of that trend as the conflict evolved 
over the years. ISIS continues to utilize social media and online 
propaganda to reach potential recruits in addition to targeting 
socioeconomically marginalized segments of the population for 
radicalization. For operational safety purposes, we regularly de-
conflict U.S. and Coalition D-ISIS operations with the Russian military 
when operating in close proximity to Russian and/or pro-regime forces. 
DOD supports the U.S. policy of reducing Iranian influence in Syria and 
pressuring the Assad Regime and their Russian backers to support a 
political resolution to the conflict in accordance with UN Security 
Council Resolution 2254 in order to create the conditions for greater 
regional stability.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. GOLDEN
    Mr. Golden. The Lead Inspector General Report to the U.S. Congress 
on Operation Inherent Resolve warned that ISIS would likely exploit a 
reduction in U.S.-led counterterrorism pressure to reorganize its 
remaining forces in Syria.
    The Report described CENTCOM's September 2019 assessment that 
``ISIS had been growing its capability to support `hybrid military 
operations' and to conduct them `when consistent counterterrorism 
pressure is absent.' ''
    We know from Iran's approach to hybrid warfare how potent and 
destabilizing this strategy can be in the Middle East.
    Please describe: (1) The threat posed by the current ability of 
ISIS--despite having lost its territory--to conduct hybrid warfare in 
Syria; (2) How this threat impacts the U.S. and its allies in the 
region; and (3) How U.S. military operations prior to the October 
Turkish incursion into Syria kept ISIS from further developing hybrid 
warfare capabilities.
    General Milley. While DOD adjusted its posture in response to the 
October Turkish incursion into Syria, CT pressure against ISIS has not 
diminished. ISIS today is not the threat it once was, but the group is 
scrambling to regain some element of its former self to achieve its 
vision. If CT pressure was significantly reduced, ISIS would likely 
attempt to intensify its insurgency throughout Syria, expand its 
influence in Sunni-majority areas, and rebuild its core capabilities, 
potentially including its ability to conduct attacks in the West. The 
group currently calculates that it lacks the capacity to seize and hold 
territory, which is why ISIS is pursuing a deliberate ``hybrid'' 
strategy aimed at gradually setting the conditions for its eventual 
reemergence as a territory-holding force. However, U.S. forces and the 
Coalition continue to work with vetted Syrian opposition forces, 
including the SDF, to apply pressure to ISIS in an effort to curb the 
group's activities.

                                  <all>
</pre></body></html>
